<html>
<title> - ONE YEAR LATER: EXAMINING THE ONGOING RECOVERY FROM HURRICANE SANDY</title>
<body><pre>[Senate Hearing 113-495]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-495

  ONE YEAR LATER: EXAMINING THE ONGOING RECOVERY FROM HURRICANE SANDY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                       
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                              
                         HOMELAND SECURITY AND
                         
                          GOVERNMENTAL AFFAIRS
                          
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2013

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        

                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

86-633 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                   Richard J. Kessler, Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                   Lauren M. Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1
    Senator Landrieu.............................................     3
    Senator Booker...............................................     3
    Senator Menendez.............................................     5
    Senator Gillibrand...........................................     7
    Senator Schumer..............................................     9

                               WITNESSES
                      Wednesday, November 6, 2013

Hon. Shaun Donovan, Secretary, U.S. Department of Housing and 
  Urban Development..............................................    10
Hon. John Porcari, Deputy Secretary, U.S. Department of 
  Transportation.................................................    13
Hon. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, U.S. Department of Homeland Security...................    14
Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works), U.S. Department of Army................................    16
Hon. Kathleen S. Tighe, Chair, Recovery Accountability and 
  Transparency Board.............................................    18
Caswell F. Holloway, Deputy Mayor for Operations, City of New 
  York...........................................................    20

                     Alphabetical List of Witnesses

Darcy, Hon. Jo-Ellen:
    Testimony....................................................    16
    Prepared statement...........................................    73
Donovan, Hon. Shaun:
    Testimony....................................................    10
    Prepared statement...........................................    43
Fugate, Hon. W. Craig:
    Testimony....................................................    14
    Prepared statement...........................................    58
Holloway, Caswell F.:
    Testimony....................................................    20
    Prepared statement with attachment...........................    88
Porcari, Hon. John:
    Testimony....................................................    13
    Prepared statement...........................................    50
Tighe, Hon. Kathleen S.:
    Testimony....................................................    18
    Prepared statement...........................................    79

                                APPENDIX

Hurricane Sandy Rebuilding Task Force paper......................   110
HUD Documents....................................................   121
Questions and responses for the Record from:
    Mr. Donovan..................................................   169
    Mr. Porcari..................................................   175
    Mr. Fugate...................................................   178
    Ms. Darcy....................................................   185
    Ms. Tighe....................................................   189
    Mr. Holloway.................................................   196
Mr. Ferzan, State of New Jersey..................................   199

 
  ONE YEAR LATER: EXAMINING THE ONGOING RECOVERY FROM HURRICANE SANDY

                              ----------                              


                      WEDNESDAY, NOVEMBER 6, 2013

                               U.S. Senate,        
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senators Begich, Landrieu, Booker, and Paul.
    Also present: Senators Schumer, Menendez, and Gillibrand.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. Thank you for being patient. We are waiting 
just a couple more minutes, and then we will start. But I thank 
you all for being here. Just hang tight. Thanks.
    [Pause.]
    Good afternoon and welcome to the Subcommittee on Emergency 
Management, Intergovernmental Relations, and the District of 
Columbia. We thank you all for being here.
    We are here today to examine the recovery in the Northeast 
one year after Hurricane Sandy came ashore on October 29, 2012. 
As we mark this solemn anniversary, we owe it to ourselves and 
to those who were lost a year ago to continue to learn from 
Hurricane Sandy to improve disaster response and recovery 
across the country.
    As we all know, the next big disaster can happen at any 
time anywhere. In my home State of Alaska, we have had our fair 
share of disasters from the Gulf of Alaska earthquake to the 
Exxon Valdez oil spill. More recently, we saw a devastating 
flood along the Yukon River. The village of Galena continues to 
face challenges, but their ongoing recovery is a testament in 
the same type of Federal, State, and local coordination that 
was so crucial in the months following Hurricane Sandy.
    As co-chair of National Preparedness Month, which wrapped 
up at the end of September, I believe it is also important to 
remember that individuals play a large role in preparing their 
communities for disasters.
    Following Hurricane Sandy, we saw citizens from around the 
country donate their time, money, resources, and expertise to 
help the affected area. Nonprofit organizations like the Red 
Cross mobilized volunteers and leveraged nongovernmental 
resources. It is this whole-of-community response that proves 
to be the best practice following large disasters.
    Alaskans take care of our own neighbors in times of need, 
which is why I voted to support the much needed funding for 
disaster relief following Hurricane Sandy. We understand that 
the interconnected infrastructure is both this country's 
biggest asset and our biggest vulnerability. While all 
disasters begin locally, their effects can reach far beyond 
established geographic boundaries.
    One of the most critical aspects of the recovery process 
following a disaster is learning from mistakes and integrating 
those lessons learned. Since Hurricane Katrina, the Federal 
Emergency Management Agency (FEMA) has worked with other 
members of the Federal family to institutionalize recovery 
reforms. The agencies released the National Disaster Recovery 
Framework (NDRF), and it is already being used today in States 
across the country, including my home State of Alaska.
    All the agencies represented here today have illustrated a 
fierce commitment to response and recovery. I applaud their 
efforts, but we can do better, and our responsibility as an 
oversight committee is to make sure that we do better.
    One area that I believe requires additional oversight from 
the Congress is the financial management of the Hurricane Sandy 
supplemental funding. In January, Congress approved more than 
$50 billion to aid with response and recovery efforts being 
performed by 19 Federal agencies. Assuring this money is spent 
in a timely fashion is critical. As we know, there are many 
communities and individuals still in need over a year from the 
storm. We must also ensure that taxpayer dollars are being 
spent wisely.
    As stewards of the public money, Federal agencies must be 
accountable for their expenditures and must be prepared to 
communicate exactly how these funds are being used. I do not 
advocate for burdensome reporting requirements that slow down 
recovery, but controls must exist to protect our national 
investment. We must assure that laws and regulation that govern 
the preparedness, mitigation, response, and the recovery 
support robust and resilient communities across the country. 
This must be the top priority.
    I look forward to hearing the testimony of the witnesses 
and today we are doing something a little different. When 
Senator Paul gets here, we will interrupt the flow and allow 
him his opening statement. We have also invited Members that 
are not on this Committee to participate; but were affected by 
Hurricane Sandy. We are also joined by Senator Landrieu here, 
whose community was clearly affected by Hurricane Katrina.
    What I have asked Members to do is make sure you have--we 
will have your full statements in the record, and then a 
reminder that we also want to hear from many of our folks here 
to testify.
    So we will start with Senator Landrieu. Then from there I 
will do it in order of appearance.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman. I am going to 
leave my comments briefly, submit my full statement to the 
record, and honor the delegation from the Northeast that is 
here. The work of Senators Schumer, Menendez, and Gillibrand 
was absolutely essential to this recovery effort, and the bill 
would not have been passed without their steadfast support in 
crafting legislation.
    Of course, welcome, Senator Booker, to the Committee, 
former mayor right in the middle of the storm as it occurred, I 
am sure can bring some extraordinary expertise to the Senate 
and to this Committee as we struggle to build a better response 
to disasters of all sorts, man-made or natural, small, medium, 
and catastrophic, which was clearly the case with Hurricane 
Katrina and came very close in Hurricane Sandy.
    So we have a long way to go, Mr. Chairman, but I appreciate 
the work of this special Subcommittee, because it is what 
mayors and county commissioners and chambers of commerce and 
individual families and, just consumers and residents and 
citizens count on us to do our best work in times of a 
disaster. They know that their government will be there for 
them and helping them to recover.
    So I will submit my full statement to the record, but, 
again, I really thank the Northeast delegation for their 
extraordinary work in the recovery, and we managed to even get 
a little bit of money out of the bill for Louisiana to keep 
going with our ongoing permanent recovery of the many storms 
that hit our State.
    Senator Begich. Thank you very much, Senator Landrieu.
    Senator Paul does not have an opening statement, but I want 
to thank him for attending and being part of this. He is the 
Ranking Member, and it is important that we do continue to 
analyze all these issues related to the emergency response of 
our country.
    So the order of attendance is I have Senator Booker next, 
and he is so new, you can tell by his sign plate. [Laughter.]
    Or he just brought his own as a former mayor, I do not 
know, but we really appreciate----
    Senator Menendez. Mr. Chairman, it gets smaller though.
    Senator Begich. Senator Menendez, you were not supposed to 
say that. We want him to learn that process. But we thank you 
for being here, and I will start with you. Then I will go to 
Senator Menendez, Senator Gillibrand, and Senator Schumer in 
that order.

              OPENING STATEMENT OF SENATOR BOOKER

    Senator Booker. First of all, I cannot thank you enough, 
Senator Begich and Senator Paul, for hosting this very 
important hearing. As you know, not only do I appreciate the 
opportunity to participate, but this is very clearly my first 
hearing as a Senator, and it could not be on a more important 
issue to the people of my State.
    I would also like to thank those testifying, including a 
long-time friend of mine, Secretary Donovan, who has been a 
partner with me on many issues back when I was mayor, and I 
look forward to working with him even closer now to the benefit 
of our State. I look forward to hearing what he has to say as 
well as those others who are testifying today, especially 
Administrator Fugate, because we are going to be meeting later 
on this week to discuss the issues, and I appreciate you making 
time to do that.
    In the aftermath of Hurricane Sandy, many of the people in 
this room played such critical roles, holding multiple hearings 
and advocating for a robust Federal response to ensure that New 
Jersey, New York, and all those States affected had the 
resources and support they needed. On behalf of the people of 
New Jersey, I thank everyone for their leadership and for your 
recognition that much urgent work had to be done.
    I want to especially acknowledge my senior Senator, Senator 
Menendez. He is a true champion of our State, and in the storm, 
as a mayor who unfortunately had a significant impact in loss 
of life, he was truly a champion not only of the whole State 
but of every community that was suffering.
    From day one, you were crisscrossing the State, Senator, 
surveying damage and shepherding desperately needed Federal 
resources to New Jersey. Now there is no denying the progress 
we have made. Federal agencies have approved more than $5.67 
billion in total Federal assistance in the form of individual 
assistance grants, Small Business Administration (SBA) low-
interest loans, National Flood Insurance Program (NFIP) 
payments, and public assistance grants.
    In New Jersey, we are resilient, we are determined, and we 
are incredibly resourceful. Our famous boardwalks have once 
again welcomed families and tourists to the Jersey Shore. 
Cities like Hoboken, Atlantic City, and, of course, Newark are 
coming back, bustling with activity. And families and business 
people continue to pick up the pieces and move forward.
    Still, far too many are recovering, and it is challenging, 
and it is a daily struggle. From Little Ferry in North Jersey, 
where we were just last week, to Mantoloking on the shore, 
thousands remain out of their homes, and countless businesses 
that were washed away in the storm have not been reopened.
    In July, I visited Ortley Beach. There were many signs of 
rebirth and renewal, and I ate in some of the restaurants, 
perhaps too many. But I also saw houses that stood like 
skeletons on the roadside, facades intact but insides gutted. 
And many of the residents I spoke to there on Roosevelt Avenue 
felt left behind and forgotten by Washington. They were still 
in pain. Many of them had challenges not just with D.C. but 
also with Trenton.
    I know no one in this room has forgotten those families, 
but they remind us that we have still so much more work to do.
    In New Jersey, we have an estimated gap of about $28.3 
billion between what is needed for a full recovery and what we 
are receiving in Federal support. This number considers 
residential and commercial sector support, reimbursement of 
municipalities, and critical mitigation activities. Though 
Congress passed a relief package in the aftermath of the storm, 
billions of dollars in Federal assistance have yet to make 
their way to families in need.
    One State-run federally funded homeowner assistance 
package, the reconstruction, rehabilitation, elevation, and 
mitigation grant program, provides up to $150,000 to individual 
families--critical dollars to help them rebuild their homes. 
Until last week, this $600 million program had yet to make even 
a single payment.
    The logjam in Federal fundings in my opinion is 
devastating. Indeed, the delay has literally put lives on hold, 
entire families uprooted from their homes, small businesses 
still shuttered, retirements postponed, and I have heard 
directly from many of those affected, painful stories of strong 
people struggling against still incredible odds, but determined 
to make it one way or another.
    As I travel across my State, there is understandable 
concern. People ask why did the Hurricane Sandy take so long in 
the first place. They speak of a bureaucratic maze that forces 
those impacted by the storm to complete reams of what seems to 
be unnecessary paperwork sometimes just to be considered for 
Federal aid. They detail stringent Federal regulations that 
leave little to no flexibility to local officials who know 
their communities best. They worry of pending hikes in their 
flood insurance rates as well.
    We must increase our sense of urgency to get funding out 
the door as quickly as possible while still remaining good 
stewards of taxpayer dollars and always protecting against 
fraud and abuse.
    It is critical that we provide for accessible, sensible 
grant programs and specifications and to avoid something that 
has been championed by all the people to my right, flood 
insurance rates, the rising of flood insurance rates at a time 
when it would bring severe economic distress to too many 
families who are recovering after a disaster.
    As this Committee knows too well, recovery from a national 
disaster of this magnitude is a very long process, and it is 
not easy. But as hard as it seems for those here who have been 
toiling for over a year to make this work, we can be sure that 
it is much harder for the thousands of New Jersey families and 
business owners. They are the ones who are deserving of a 
helping hand in the wake of this terrible storm.
    So my commitment to them is to join with all of you to 
ensure that folks from the Maurice River to Little Ferry to 
Ortley Beach and everywhere in between get the help they 
certainly need, the help they rightfully expect, and the help 
that they definitely deserve.
    I look forward to working hand in hand with State and local 
officials, my fellow Senators, and members of the 
Administration to make this recovery period as short, 
efficient, and successful as possible.
    Thank you.
    Senator Begich. Thank you very much.
    I have Senator Menendez next.

             OPENING STATEMENT OF SENATOR MENENDEZ

    Senator Menendez. Well, thank you, Mr. Chairman, and since 
you are going to include our full statement for the record, I 
am not going to go through it all, but there are a couple of 
points I want to highlight, particularly for the Committee's 
consideration as it moves forward in thinking about future 
disasters.
    Let me just say I am thrilled to be here with my colleagues 
from New York who were extraordinary in our joint effort to 
fight for the resources for recovery in our area and continue 
to be that.
    I remember that my late colleague Senator Lautenberg, a 
Member of the full Committee, was passionate about this issue, 
and I appreciate then-Mayor Booker doing an extraordinary job 
because people think it was only the shore of New Jersey, but 
cities in New Jersey faced tremendous challenges, and he did an 
extraordinary job in responding to the crisis there, and that 
is when you really test the mettle of leadership, and we 
appreciate his leadership in this regard and look forward to 
having him work with us to continue to recover.
    There are many successes, and I want to commend the 
Department of Housing and Urban Development (HUD) Secretary as 
the overall chair of this effort, the Transportation Department 
(DOT), FEMA. There are many successes. But there are also 
challenges. Recovery is not yet a reality. Full recovery is not 
a reality for the people of New Jersey. There are many people 
who are hurting, Mr. Chairman, and they continue to languish. 
There are those for which either flood insurance did not exist, 
or if it existed, did not still make them whole. There are 
those who find themselves in new flood zones that mean that the 
ability to keep their home and what they have built a lifetime 
is now in the crosshairs because of new requirements to either 
raze their homes and/or a variety of other issues, as well as 
the challenges of flood insurance.
    There is a responsibility to ensure that when we give out 
the taxpayers' money, even in a disaster, that we do it in a 
way that ultimately ensures the integrity of that money. But 
that has to be balanced by the urgency of now. And I appreciate 
that hopefully part of what the task force is doing is looking 
at how we do this prospectively so that we do not wait for a 
disaster to figure out what would be the appropriate programs 
that need to be set up in order to respond, because that 
process in trying to balance the integrity of the money with 
the need and the urgency of now has been somewhat of a 
challenge. And there is still too much money flowing to the 
State that has not quite flowed to the people of New Jersey. We 
need to do a better job of that.
    And the one thing that I do want to take the balance of my 
time to talk about--and I appreciate virtually all of my 
colleagues sitting here and the Chair having joined us--is the 
question of not the natural disaster that we face bureau the 
man-made disaster that we may have if we do not rectify it, and 
that is the question of flood insurance. The reality is that 
for thousands of people in New Jersey, recovery is an around-
the-clock effort, and New Jersey families as well as others in 
the Nation, as we saw by the broad bipartisan support we have 
for the legislation we are promoting, have been hit with a 
triple whammy. They were first flooded by Hurricane Sandy, and 
they lost their homes, their lifetime of effort, many of their 
memories of a lifetime. And then the second is that they have 
to face repair and mitigation costs. And then now, third, they 
are facing astronomical increases in flood insurance costs 
built into the flood reform bill that was passed before 
Hurricane Sandy hit.
    Now, the fact is that the combination of updated flood maps 
and the phaseout of premium subsidies for the National Flood 
Insurance Program threatens to force victims out of their homes 
and destroy large segments of communities, if not some smaller 
communities and entire communities. Homeowners would be forced 
to pay premiums that are several times higher than the current 
rate. And those who cannot afford the higher premiums will 
either be forced to sell or be priced out of their home, which 
will drive down values, property values, and local revenues at 
the worst possible time.
    So I want to take the opportunity to promote the bipartisan 
legislation that seeks to take a timeout, that seeks to say, 
OK, we asked FEMA to do an affordability study, they have not 
had the time and the resources to finish it. Well, we should 
not have premium increases until that affordability study is 
done and we find an affordability mechanism so that, in fact, 
we can keep the solvency of the program but also create 
affordability so people do not lose their homes and be the 
victims of a natural disaster. And that, Mr. Chairman, I think 
is one of the most urgent things that sits before the Senate 
that I look forward to your help and the help of my colleagues 
here to achieve.
    Senator Begich. Thank you very much. Senator Gillibrand.

            OPENING STATEMENT OF SENATOR GILLIBRAND

    Senator Gillibrand. Thank you, Mr. Chairman. Thank you, 
Ranking Member Paul and Members of the Subcommittee. I also 
want to give a special thanks to Senator Landrieu, who I have 
dubbed the ``third Senator from New York'' during Hurricane 
Sandy because she was such a vociferous advocate for our 
families. She made sure that we could fix as many things in 
advance to make sure recovery flowed, to make sure all of the 
logjams she experienced with Hurricane Katrina did not happen 
in New York and New Jersey and other States. She is someone who 
really understands these programs, what works, what does not 
work, and I just want to thank her for her continued focus on 
recovery and preventing--and creating resiliency, and her 
leadership on this really is extraordinary, and I just want to 
thank her.
    I also want to thank Senator Menendez and Senator Schumer 
and Senator Lautenberg, who obviously is not with us. You have 
never seen tougher, stronger champions than my colleagues who 
put themselves in the shoes of every family and advocates for 
what they need most. And I just want to thank them for their 
leadership.
    I know that Senator Booker will also not only stand in 
Senator Lautenberg's shoes but be able to be that same strong 
advocate at a time of grave need. He has shown it as mayor. I 
know you will show it as Senator, and I want to welcome you to 
this fight.
    Obviously the road to recovery is long and hard, but New 
Yorkers are strong. We rebuild. We rebuild better, we rebuild 
stronger. But the damage was severe. We lost 61 lives. We lost 
hundreds of thousands of small businesses. We lost 300,000 
homes, and I remember Senator Landrieu, who suffered far more 
in loss of life, really could not quite conceive of the loss 
that we suffered in businesses and homes because our population 
was so dense. And so our road to recovery is difficult and 
different, and the solutions are difficult and different, and I 
think the work that you are doing is essential for us to meet 
our goals.
    Now, Congress has worked hard on a couple of problems and 
done a few things that were necessary. We did extend the 
critical deadline to give Hurricane Sandy survivors the time 
they needed to document the losses, which is difficult for a 
lot of families. We did ease regulations that would have 
prevented substantially damaged homes from accessing recovery 
funds. We also received assurances from the Army Corps of 
Engineers (ACE) that they will fund the critical shore 
protection projects at full Federal expense, and this is 
something Senator Schumer was very aggressive on very early on, 
because there were a lot of projects that the Army Corps had 
already designated as necessary that we wanted to make sure got 
funded, and he made sure that was the case.
    But we have to do so much more, and that is exactly what 
the Senators who have already talked have touched upon. We have 
to continue to ensure that the red tape does not get in the way 
of reimbursements. We need to make sure these communities that 
have been affected can get the financing and the money that 
they need. We have to make sure that homeowners, individual 
homeowners, receive the kind of resources they actually need to 
rebuild.
    The Senate must pass legislation that we have cosponsored 
to delay the added burden of the disastrous flood insurance 
premium increases. These increases are set to take effect, and 
no one can afford them. They are unaffordable for nearly every 
New Yorker that I have spoken to, absolutely out of reach. So 
you cannot have a flood insurance program that is too expensive 
for everyday Americans that need flood insurance. It just does 
not work. So we must do that. When FEMA has completed this 
study, we can then look at it, and Congress can make a plan for 
how to make the rates affordable.
    Even as the homeowners are rebuilding, they are seeing 
these rates increase. They could force many New Yorkers not to 
be able to rebuild because they will not be able to buy the 
insurance, so they will not get the permitting, and they are 
out of a home. They are homeless.
    As we continue to recover from Hurricane Sandy, we need to 
strengthen the resiliency on future storms. This is not the 
first and it is not the last superstorm. We know this. And as 
we see storms come in more violently, more damaging, more lives 
lost, we know what is to come. So when we rebuild, we have to 
rebuild for the future storm. Every dollar that we invest to 
strengthen our homes, businesses, and infrastructure saves $4 
in potential recovery costs down the line.
    Early this year, Senator Wicker and I introduced a bill to 
do this. It is called the STRONG Act. We introduced in the 
Environment and Public Works (EPW) Committee. It is a 
bipartisan bill. It is the kind of bill that builds on the 
progress that Mary Landrieu and others have been making on 
these storm recovery efforts.
    It also is something that engages the local government by 
requiring the Federal Government to develop national resiliency 
strategies and to assess where there are gaps and use best 
practices that are being developed around the country.
    We have come a long way in the last year, but as I said, we 
have so much more to be done. When I read reports of how few 
homeowners have actually been able to rebuild, it breaks your 
heart. New Yorkers want to rebuild. They want to rebuild 
stronger. But they do need Federal help.
    Thank you so much for your dedication.
    Senator Begich. Thank you very much. Senator Schumer.

              OPENING STATEMENT OF SENATOR SCHUMER

    Senator Schumer. Thank you, Mr. Chairman. First, let me 
thank you for your diligence. You have been a great force in 
helping us as we have had our troubled times. Senator Landrieu, 
as has been mentioned, has been invaluable. We have learned 
from the mistakes that were made in Hurricane Katrina, and she 
was our guide as we went through this. I want to thank my 
colleagues here. We were a great team and did basically the 
impossible: getting $60 billion. We were held up for too long a 
period of time by some, but getting that amount of money in 
programs that are really going to work was one of the 
accomplishments I think we can be proudest of in our 
legislative careers. And I want to welcome Senator Booker. He 
will fill Frank Lautenberg's large shoes and be a valuable 
member of our bi-State team.
    I would like to say to at least the five of you, I have 
worked closely in making sure things worked, and you have done 
a great job. You have been exemplary public servants, four at 
the Federal level, one at the city level. And I thank you for 
that and look forward to continuing working. I look at each of 
you and can think of accomplishments that we have done together 
in terms of negotiating and getting things done, so thank you 
to Shaun Donovan, John Porcari, Craig Fugate, and Jo-Ellen 
Darcy. To Cas Holloway, you have done a great job as head of 
the city, and I have not dealt with Ms. Tighe because she is 
oversight. She is supposed to watch what we are doing. So keep 
an eye on us.
    Well, there is so much to say here. First, there is a 
question everyone asks: How is it going? It is going overall 
very well. The amount of money that has been spent and 
allocated is large. And at least up to now--and let us hope it 
continues--we have not seen a major misspending of money. We 
want to avoid the scene of trailers being unused, which 
happened despite Mary Landrieu's great efforts in Louisiana. 
And then what she warned us of as well, lots of money sitting 
there that could not be used. And so the way we structured 
these programs, particularly the community development block 
grant (CDBG) but the Army Corps' programs, the Transportation 
programs, the FEMA programs as well, was to make sure that the 
money would go where it had to go and go quickly, but without 
wasting money.
    And so I know there is a move, all the money should be 
spent in 3 months. If that were happening, there would be still 
millions of people--or thousands of people complaining that 
they did not get what they needed because it would not have 
been allocated carefully and properly, and there would have 
been lots of--our newspaper reporters would have been writing 
about all the misspent money. We have not seen that. And so it 
is taking longer than we would like, and it is certainly true 
that homeowners have not gotten the money that we would have 
liked to see have gotten more quickly. But I believe while the 
first year was one of laying the structure and recovery, making 
sure the roads were cleared, making sure people had 
electricity, making sure rents were paid for the hundreds of 
thousands of people who were pushed out of their homes, the 
second year--the first year was recovery, but the second is 
rebuilding, and the money is flowing and flowing well, and 
flowing, I think, in a way that it will be better used than in 
any major public disaster in the history of this country.
    Our homeowners will see $1.4 billion. We told many of them, 
we all did together, lay out the money to rebuild, and you will 
be repaid. And the combination of the FEMA program, which is 
fairly rigid, and the CDBG program, which is more flexible, 
will lead to that happening.
    Now, it could not happen immediately for a lot of reasons. 
First, people did have to rebuild. Second, we were not going to 
pay when private insurance should step up to the plate, so we 
had to see how much private insurance people were getting. But 
what we made sure of is, if your damage was $100,000 and your 
FEMA money was $10,000 and your private insurance was $40,000 
and you had a $50,000 gap, that the CDBG money will be there. 
Good thing.
    Second, we worked really hard to make sure that there were 
mitigation processes put in housing and transportation and in 
everything else we did. So when we rebuild, we will be much 
more resilient against a future storm, which has been said will 
happen. And we have done that, and that makes a great deal of 
sense, too.
    So I predict that this second year of Hurricane Sandy 
recovery will be a year when people see lots of rebuilding, and 
by the end of year two, people will be a whole lot happier with 
the program than they are at the end of year one. But it is 
because of the good work that we all did together, the five of 
us here--Cory, of course, doing his work in Newark. The five of 
us here at the Federal level and those of you back there, it 
has been a strong team effort that I believe will be regarded 
as one of the most successful efforts in terms of getting a 
large area to recover from a powerful, horrible storm as well 
and as quickly as possible.
    Senator Begich. Thank you very much, Senator Schumer.
    What I would like to do is go through the panel, and I am 
sure many of us will have questions, but, again, we want to 
thank you for being here. Thank you for your work on a daily 
basis on the disasters that we are faced with across the 
country.
    The first one we have to speak is Secretary of HUD, 
Secretary Donovan, who has served in the position since 2009. 
Thank you for coming to Alaska as you have done before. Prior 
to work in the Administration, he served as Commissioner in the 
New York City Department of Housing Preservation and 
Development, so I know you have a personal concern about what 
happens in New York. So let me turn it over to Secretary 
Donovan.

    TESTIMONY OF THE HON. SHAUN DONOVAN,\1\ SECRETARY, U.S. 
          DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT

    Secretary Donovan. Chairman Begich, Senators Landrieu, 
Schumer, Menendez, Gillibrand, and Booker, it is a great 
pleasure to be joining you today, and I want to begin by 
remembering that last week on the 1-year anniversary of 
Hurricane Sandy, our Nation paused to remember all those who 
lost their homes, their businesses, and, most tragically, lost 
their lives.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Donovan appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    I remember visiting the region soon after the storm struck 
and being stunned by the breadth of destruction: $65 billion in 
damage and economic losses, 650,000 homes damaged or destroyed, 
9 million people lost power. It was clear that the road to 
recovery would be long and difficult. But if you know anything 
about the people from this region--and I am proud to count 
myself as one of them--it is that they are resilient. They may 
get knocked down, but they always get back up.
    After Hurricane Sandy, they began the work of putting their 
lives and communities back together, and President Obama 
quickly pledged his support of these local efforts in order to 
ensure a full recovery. So he created the Hurricane Sandy 
Rebuilding Task Force to maximize Cabinet-level coordination in 
support of the work to rebuild this region. I have been 
enormously proud to chair this effort as we work to achieve two 
basic goals: one, to get the assistance that you all fought so 
hard to make a reality to communities as quickly as possible, 
to meet the immediate needs; and, second, to ensure that the 
region rebuilds stronger and smarter than before so that it is 
better equipped to deal with future storms.
    Let me begin with the work of getting assistance to 
communities quickly and effectively. As you know, in January 
President Obama, working with all of you in the Congress, State 
and local leaders, fought tirelessly to get $50 billion in 
Hurricane Sandy supplemental funding in order to aid victims of 
the storm. And ever since, it has been a priority of the 
Administration to get these dollars into communities as quickly 
and responsibly as possible. That is why we thought it was 
critical to include several measures in the supplemental that 
facilitated more efficient spending of these dollars, and I 
want to particularly call out Senator Landrieu for all her help 
and assistance on this. A few examples:
    Giving HUD the authority to reduce duplicative 
environmental reviews. As a result of these and other measures, 
we made great progress on a number of fronts. More than 230,000 
people and small businesses have received direct assistance 
from FEMA, the Small Business Administration, the Department of 
Labor (DOL); more than 99 percent of Hurricane Sandy-related 
National Flood Insurance policy claims totaling more than $8 
billion have been paid out to roughly 143,000 policy holders 
who filed claims; 97 percent of public beaches in the affected 
region were open by Memorial Day 2013, sending a strong message 
that the shore was ready for business. And when you include the 
National Flood Insurance Program, the Administration has 
allocated nearly $40 billion in funding for recipients with 
roughly $13.5 billion of this already paid out.
    HUD in particular has allocated $10 billion in community 
development block grants, including an allocation that took 
place within 8 days of the signing of the Hurricane Sandy 
supplemental into law. This represented the fastest ever 
allocation following the signing of an appropriations bill.
    So relief is getting to communities, but as you have all 
said, we know it can never be fast enough. That is why we have 
been creative in finding ways to work with local partners to 
expedite the rebuilding process. This includes the Small 
Business Administration's work to accelerate application 
processing times, which has fallen from 61 days during 
Hurricane Katrina to 42 days during Hurricane Sandy, a drop of 
about one-third.
    The use of a streamlined permitting and review process for 
complex large infrastructure projects that is based on a model 
which has reduced implementation times by 50 percent. Just one 
example, cutting 3 to 5 years off of projects like the Tappan 
Zee Bridge.
    The alignment of the Federal Housing Administration (FHA) 
and the Federal Housing Finance Agency (FHFA) for closure 
prevention policies in disaster-affected areas, making it 
easier for homeowners to get the help they need to stay in 
their homes at such a critical time in their lives.
    And the establishment of a uniform minimum flood risk 
reduction standard across the Federal Government for major 
Hurricane Sandy rebuilding projects in floodplains, 
representing the first time a Federal Governmentwide standard 
has been set that accounts for the effects of rising sea 
levels.
    And moving forward, we will continue to look for new ways 
to remove unnecessary barriers and headaches, ensuring that the 
billions that flow into the region are put into use as quickly 
and efficiently as possible.
    This complements our other goal: rebuilding stronger and 
smarter so that the region is better prepared to withstand 
future storms. On August 19, the task force released our 
rebuilding strategy for the region, which included 69 
recommendations to do just that. It included steps to harden 
our power grid and our fuel supply chain, to address the 
sustained outages in gas lines we saw during Hurricane Sandy, 
and steps to help families and small businesses rebuild in 
these new times.
    The strategy also identifies ways to leverage additional 
private funds to support infrastructure projects. Investing in 
projects that will make our communities more resilient is vital 
to their safety. It is also good for our economy. As Senator 
Gillibrand pointed out, we know that for every dollar we spend, 
we save $4 in avoided costs in future storms.
    Every recommendation in this strategy has a detailed 
implementation plan, and I and my Department will be 
accountable to the region, to you, to see them through. And we 
will stay at it for as long as it takes, knowing that 
eventually we will emerge stronger and more vibrant than ever.
    As I mentioned earlier, following Hurricane Sandy it was 
clear that the road to recovery would be long and difficult. A 
year later, I am proud to say we have made significant 
progress. Families have gotten back on their feet, businesses 
have reopened, communities are turning the page and looking 
toward the future with new hope. But we all know that much more 
work needs to be done, and all of us in the Obama 
Administration are committed to working with local partners and 
with all of you to continue to get assistance to those in the 
process of rebuilding, ensure the region is better prepared to 
withstand future extreme weather events, and work to improve 
our recovery efforts across the Nation.
    These are our goals I look forward to working with this 
Committee on, and I look forward to answering your questions 
today. Thank you.
    Senator Begich. Thank you very much.
    The next person I have on the list, Mr. John Porcari, has 
served as the Deputy Secretary of DOT since 2009. Before 
becoming the Deputy Secretary, he had served twice as the 
Secretary of the Maryland Department of Transportation.
    Thank you very much for being here.

 TESTIMONY OF THE HON. JOHN PORCARI,\1\ DEPUTY SECRETARY, U.S. 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Porcari. Thank you, Chairman Begich and Members of the 
Subcommittee. It is a pleasure to be here today to highlight 
the Department of Transportation's role in assisting the 
communities that were devastated by Hurricane Sandy just a year 
ago.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Porcari appears in the Appendix 
on page 50.
---------------------------------------------------------------------------
    When the hurricane hit, the damage it caused did not just 
take a tragic human toll; it also dealt a devastating blow to 
the regional transportation system, which is the lifeblood of 
the region's economy. On the aviation side, three of the 
busiest airports in the country and 19,000 flights were 
affected. The highway system as well suffered significant 
damage. But what stands apart is this historic storm triggered 
the worst public transit natural disaster in the history of the 
United States.
    In response to this disaster, Congress passed the Disaster 
Relief Appropriations Act, which included $12.4 billion in 
assistance for transportation programs. It is worth noting that 
the assistance was reduced by $650 million due to 
sequestration. More than $10 billion of this went to fund the 
Federal Transit Administration's (FTA) new Public 
Transportation Emergency Relief Program, which had been 
proposed by President Obama back in 2011 and was later 
authorized by our transportation bill, MAP-21. This emergency 
relief (ER) program for transit was in place for about 30 days 
before the disaster hit.
    In addition to helping transit agencies make immediate 
repairs, the ER program also supports mitigation activities 
that will improve resiliency and help transit infrastructure 
resist similar storms in the future.
    Disaster relief appropriations funding also went to fix the 
rest of the transportation network as well: roads and bridges, 
restore Amtrak service, and as I mentioned, repair airport 
facilities at Newark, LaGuardia, and John F. Kennedy 
International Airport (JFK). To date, the Department of 
Transportation has allocated nearly $7 billion for repairs and 
resiliency efforts in response to Hurricane Sandy.
    We have learned a lot from the hurricane experience that 
will help us respond to future events.
    First, a coordinated and efficient Federal response is 
essential. President Obama's Hurricane Sandy Rebuilding Task 
Force has helped all the Federal agencies involved work 
together to deliver the best possible outcomes for the 
communities affected by the storm. Secretary Donovan's 
leadership has been important in moving forward.
    Second, Hurricane Sandy and other recent disasters 
underscore the Nation's vulnerability to extreme weather events 
under current climate conditions. That is why one of our top 
priorities moving forward is to better protect existing 
transportation infrastructure and equipment from the impact of 
future natural disasters. It just makes sense. If we are going 
to spend money rebuilding transportation, let us build it to 
last.
    We will soon be issuing a Notice of Funding Availability 
for capital projects that will reduce the risk of damage of 
from future disasters in the region impacted by Hurricane 
Sandy. We are going to do that on a competitive basis. We 
believe these investments in resiliency will help reduce the 
need for any future recovery efforts. And as has been 
previously pointed out, research has shown that every dollar 
spent by FEMA on actions to reduce disaster losses now saves 
the Nation almost $4 in avoided impacts. We are hoping to 
realize similar cost savings for the American taxpayer by 
ensuring that our transportation infrastructure is built to 
withstand future storms.
    However, I must caution the need for resilience investments 
far exceeds the available funding. The FTA has only emergency 
relief funds available for Hurricane Sandy recovery efforts and 
nothing nationwide beyond that. That leaves us without any 
ability at the Department to address our next crisis, including 
future emergencies occurring outside this region.
    Much of my own career has been at the State and local 
level, and I know firsthand how important it is to respond 
quickly and effectively. I strongly encourage Congress to 
appropriate funds so that when the next disaster strikes and 
takes public transportation systems offline, we will be in a 
position to respond immediately.
    I thank the Subcommittee for inviting me to testify. I 
would be happy to answer any questions. Thank you.
    Senator Begich. Thank you very much.
    The next speaker is Mr. Craig Fugate, who was confirmed for 
the FEMA Administrator in 2009 after serving as the Director of 
the Florida Division of Emergency Management. In 2004, he 
managed the largest Federal disaster reason in Florida history 
as four major hurricanes impacted the State in quick 
succession.
    Thank you very much. Good to see you again.

   TESTIMONY OF THE HON. W. CRAIG FUGATE,\1\ ADMINISTRATOR, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman and Senator. Secretary 
Donovan laid out a lot of the numbers, so I want to come back 
to what you have done to set the stage for what we were able to 
do as a Federal Government and then our next steps.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Fugate appears in the Appendix on 
page 58.
---------------------------------------------------------------------------
    I am going to start with something that you are not hearing 
a lot about but I think it is important we talk about, and that 
has been the continued support and funding from Congress to 
State and local governments through homeland security grants 
and emergency management preparedness grants, building the 
capability at the State and local level to manage the initial 
impacts of these types of disasters. Without that, the Federal 
Government could not have done its job if our State and local 
partners were not able to do theirs. So this is one thanks for 
the investment over time, specifically since 9/11. Those 
investments are paying off in increased capability and 
resiliency our communities have against all hazards.
    The second piece was we would not have been prepared to 
respond as FEMA without the Post Katrina Emergency Management 
Reform Act (PKEMRA), and I doubt very much I would be here 
testifying, because that law substantially changed what FEMA's 
mission was, requirements of the person that is chosen to lead 
the organization, as well as the tools required to not wait 
until States are overwhelmed before the Federal Government can 
mobilize. This put us in the position under the President's 
leadership to move resources and supplies before any State was 
hit by this storm, before we knew how devastating this was 
going to be. Again, those tools set the stage for the response 
and support of State and local government.
    We oftentimes talk about the money and the supplemental, 
which overshadows something I think is very fundamental, a 
change to the Stafford Act. The Sandy Recovery Improvement Act 
addressed many of the issues that we still had that became 
impediments to recovery. Probably one my best examples was in 
debris management. We were actually increasing the cost of 
removing debris because we had rules and policies that said if 
you use your folks and your Public Works Department to pick up 
debris, we are not going to reimburse you for those costs, only 
their overtime. But if you hire a contractor to do that, we 
will pay you the full cost share on that. And it was these 
tools that we began to implement. We have used them in 
disasters post. These were not Hurricane Sandy specific, but 
Hurricane Sandy certainly became the catalyst of how we would 
be better stewards of getting money out effectively to empower 
local and State governments to rebuild faster without losing 
the ability to maintain the fiduciary responsibility of 
ensuring that the dollars go toward the things they were 
intended to go.
    We have used these not only now in Hurricane Sandy, but 
some of these we were allowed to go to previous disasters, 
where we have been able to use cost-estimating tools in Vermont 
to do a big challenging project there. We have been able to do 
some things that quite honestly they always made sense, but you 
gave us the tools. Although it was only a few tribes impacted 
and this came after Hurricane Sandy, I think for our sovereign 
federally recognized tribes, also something that was very 
unheard of is you finally gave federally recognized tribal 
governments the recognition of the sovereignty that no longer 
requires them to go through a State to request declarations. We 
implemented that program after the law was signed. In fact, the 
first tribal government that came in was the Eastern Band of 
the Cherokee Indians. We did not wait for the rules to catch 
up. We did not wait for our procedures to catch up. We fully 
implemented the law as you intended, and we have now 
successfully executed disaster declarations at the request of 
tribal governments.
    We have a lot of work to do. We tend to look at one-year 
marks, but I knew going in that this was going to be a multi-
year recovery. I think Senator Schumer said it right, that the 
first year is oftentimes those initial steps where you see a 
lot of progress in the beginning, and then it starts to slow 
down because now we are starting to move into rebuilding. From 
the President's direction on down, we want to make sure is we 
rebuild for the future and not the past.
    We know that we can make these improvements and make 
investments that may cost a little bit more on the front end, 
but we can assure the delivery of critical services and 
infrastructure in the future.
    Last, Senator Martinez, again, we agree. The 
Administration's position on the reauthorization of the Flood 
Insurance Program, we need to have affordability. But we found 
that in the legislation passed we did not have the tools to 
allow us to build in affordability before the increases took 
place. We look forward to working with Congress to get a tool 
that allows us not to keep kicking the can down the road but 
address affordability for people that live in their homes. We 
also want to ensure we are not building back the same way, 
putting people in future generations at risk.
    Thank you.
    Senator Menendez. Mr. Chairman.
    Senator Begich. Yes?
    Senator Menendez. Martinez was my former colleague from 
Florida, but---- [Laughter.]
    Mr. Fugate. Sorry, Senator Menendez.
    Senator Begich. It was a Freudian slip.
    Senator Menendez. We are both Cuban, but we do not all look 
the same.
    Mr. Fugate. Sorry.
    Senator Begich. Great. Thank you very much. And let me also 
say that I really appreciate the work you did with the tribes. 
That is a huge opportunity, so thank you for that.
    The next person I have is Ms. Jo-Ellen Darcy who is the 
Assistant Secretary of the Army (Civil Works), which has 
primary supervision over the U.S. Army Corps of Engineers. 
Prior to her appointment, Ms. Darcy served as the senior 
environmental adviser to the Senate Finance Committee 
responsible for environment, conservation, and energy issues.
    Good to see you again. Thank you.

TESTIMONY OF THE HON. JO-ELLEN DARCY,\1\ ASSISTANT SECRETARY OF 
        THE ARMY (CIVIL WORKS), U.S. DEPARTMENT OF ARMY

    Ms. Darcy. Thank you, Senator Begich, and thank you for the 
opportunity today to testify on the Corps' continued work on 
the recovery from Hurricane Sandy.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Darcy appears in the Appendix on 
page 73.
---------------------------------------------------------------------------
    Federal support during the response to Hurricane Sandy was 
unprecedented. The Corps was part of an interagency team to 
include State and local governments which provided technical 
assistance and rapid response activities across the impacted 
areas. The Disaster Relief Appropriations Act of 2013 provided 
the Corps with $5.35 billion to address damages caused by 
Hurricane Sandy. This money is being used to reduce future 
flood risk and increase the long-term sustainability of the 
coastal ecosystem and communities while reducing the economic 
costs and risks associated with large floods and storms.
    The Corps has made significant progress in the year since 
Hurricane Sandy and in the time since the passage of the 
appropriations bill.
    The Corps' Hurricane Sandy recovery program has three major 
components: First, it is our near-term component that supports 
emergency operations and repair and restoration of previously 
constructed Corps projects along the coastline, dredging of 
Federal navigation channels and repair of Corps-operated 
structures; second, an investigations component that expedites 
the completion of ongoing studies at full Federal expense and 
funds the North Atlantic Coast Comprehensive Study; third, our 
construction component rehabilitates, repairs, and constructs 
projects to reduce future flood and storm damage risk in 
smarter and more sustainable ways.
    As part of the near-term component, the Corps started beach 
repair and restoration of existing projects along the Atlantic 
coast in February 2013 and is scheduled to conclude these 
actions by the fall of 2014. To date, the Corps has placed 
approximately 12 million cubic yards of sand to repair dunes 
and berms and will continue work to restore them to their 
original design conditions. Also, the Corps has obligated 
almost $390 million to restore damaged projects. Of the total 
33 projects in this phase, 7 are completely restored, 22 have 
awarded construction contracts, and 4 are in the design or the 
pre-award stage.
    Near-term efforts also include addressing the storm's 
impacts to our navigation infrastructure. The Corps' operations 
and maintenance work began in February 2013, and most projects 
are scheduled for completion by the spring of 2015. By the end 
of fiscal year (FY) 2013, the Corps had obligated over $160 
million for this work with 35 projects completed and 28 in 
construction.
    For the investigations component, the Corps is using 
funding to expedite completion of 18 flood and storm damage 
reduction studies in the Northeast that were underway when 
Hurricane Sandy occurred. Twenty million dollars of the 
investigations funding is for the Comprehensive Study, which 
will assess 31,000 miles of the North Atlantic coastline, 
bringing together experts in coastal planning, engineering, and 
science from more than 90 governmental, academic, and 
nongovernmental entities. The Comprehensive Study team has 
developed a draft framework that is currently under review, and 
the results of the study we think will inform our future 
planning efforts.
    The Corps was also directed to conduct a Performance 
Evaluation Study to evaluate the effectiveness of completed 
Corps projects during Hurricane Sandy and to include summary 
recommendations for future improvements. I signed the 
transmittal of this report this morning, so it should be here 
on the Hill by now.
    The third component of the program will construct projects 
that were previously authorized but not constructed at the time 
of Hurricane Sandy's landfall, potential projects identified 
for implementation following the investigation process, and 
projects that will fall within our Continuing Authorities 
Program (CAP). Planning, design, and expedited reevaluations 
are underway for the 18 previously authorized but not yet 
constructed projects, the Corps anticipates construction will 
begin in early 2014.
    The Corps expects to complete construction work on roughly 
half of these flood risk reduction projects by mid-2015. Of the 
identified Continuing Authority Projects, Massachusetts, 
Connecticut, New York, New Jersey, Delaware, Maryland, and 
Virginia are currently scheduled to receive beach erosion and 
coastal storm damage risk reduction projects, and we expect 70 
percent of this work to be completed by 2016.
    There will always be a residual risk for Americans who live 
in coastal regions. Expected changes in sea level rise, extreme 
weather, and other impacts due to climate change are likely to 
increase the risks facing these areas. Together with the 
National Oceanic and Atmospheric Administration (NOAA) and 
FEMA, the Corps of Engineers has developed a sea level rise 
tool to help communities anticipate the implements of sea level 
rise. We will use base flood elevation maps from FEMA, the 
coastal mapping capabilities of NOAA, and a sea level rise 
calculator from the Corps of Engineers. This tool yesterday was 
recognized by the President and was awarded the Green 
Government Climate Change Champion Award. So the collaboration 
between our agencies as a result of Hurricane Sandy has already 
produced a future-looking sustainability tool that we can all 
use throughout the Federal Government.
    In addition, NOAA and the Corps of Engineers are working 
together to help rebuild more resilient and sustainable coastal 
communities. While working on post Hurricane Sandy recovery 
efforts in New York and New Jersey, NOAA and the Corps jointly 
developed a set of infrastructure systems rebuilding principles 
in order to promote a unified strategy for activities in 
restoring the coast. Collaborative efforts on all levels 
continue to explore and implement solutions that reduce risk 
from coastal storms, such as appropriate land use planning, 
non-structural solutions, and well-communicated evacuation 
planning.
    Mr. Chairman and Members of the Committee, I thank you for 
the opportunity and look forward to any questions.
    Senator Begich. Thank you very much.
    Our next speaker is Ms. Kathleen Tighe currently serves as 
the Chair of the Recovery Accountability and Transparency Board 
while continuing her position as Inspector General (IG) for the 
Department of Education. The Board has been charged with 
tracking Federal dollars being spent on the Hurricane Sandy 
recovery.
    Thank you for being here.

  TESTIMONY OF THE HON. KATHLEEN S. TIGHE,\1\ CHAIR, RECOVERY 
             ACCOUNTABILITY AND TRANSPARENCY BOARD

    Ms. Tighe. Thank you very much. Mr. Chairman, Senators, I 
want to thank you for the opportunity to appear before you 
today. As Chair of the Recovery Board, I will be speaking to 
you about the Board's role in the oversight of funds expended 
in support of Hurricane Sandy recovery efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Tighe appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    The Board was created in February 2009 as part of the 
Recovery Act. It consists of 12 Inspectors General, and its 
mission is to provide transparency of the use of recovery funds 
and to prevent and detect fraud, waste, and abuse. We meet this 
mission by managing the FederalReporting.gov website through 
which recipients of recovery funds report and by displaying 
that spending information in unique ways on our public website, 
Recovery.gov. We also developed the Recovery Operations Center 
(ROC), as a central data analytics service to support fraud 
detection and prevention. The ROC has the ability to rapidly 
aggregate and analyze large, complex volumes of data, to screen 
for potential risks or identify targets, and provide deeper 
investigative information in the support of audits, 
investigations, and prosecutions.
    While the Board was originally due to sunset on September 
30 of this year, the Hurricane Sandy legislation extended the 
Board through September 2015, with additional duties for the 
Board to develop and use our resources and oversight mechanisms 
to detect and remediate fraud, waste, and abuse of funds 
related to Hurricane Sandy.
    Our oversight efforts related to Hurricane Sandy have 
focused on applying the techniques and processes developed by 
the ROC to examine the spending, primarily working with our IG 
partners. In coordination with the Department of Homeland 
Security Office (DHS) of Inspector General, we conducted a 
review of 104 entities that received Hurricane Sandy debris 
removal contracts from 32 cities in New York and New Jersey 
totaling over $329 million. Among the particular risk 
indicators we reported to DHS the Office of Inspector General 
(OIG) were firms whose owners had Federal and State tax liens, 
one that had previously been listed on the Federal list of 
suspended or debarred bidders, and companies that had filed for 
Chapter 7 bankruptcy and had Federal tax liens.
    In addition to this work, we have provided assistance to 
DHS OIG on its investigations of other FEMA Hurricane Sandy 
public assistance grants and to other OIGs in their Hurricane 
Sandy work. For the State of Rhode Island, we undertook a 
proactive analysis of 10,000 potential Hurricane Sandy 
contractors against our databases that would show potential 
risks and reported information back to that State.
    In addition to our work in the ROC, we are using our 
website, FederalTransparency.gov, to attempt to collectively 
display what information is available on Hurricane Sandy 
spending. We visually display Hurricane Sandy-awarded contracts 
from the Federal Procurement Data System and agency award 
information, as well as links to FEMA spending by State and 
State Hurricane Sandy websites. We also display the Department 
of Justice's (DOJ) disaster fraud reporting hotline.
    We are currently in the final stages of moving the 
Hurricane Sandy information to our Recovery.gov website to be 
able to better use the functionalities of that website.
    Since commencing our work on our Hurricane Sandy mission, 
we have identified a series of challenges that we continue to 
face. The first is obtaining accurate and complete Hurricane 
Sandy spending data. With no mandated centralized reporting, 
such as we had in Recovery, access to standardized data is 
limited. While the Federal Procurement Data System and 
USASpending have information related to Hurricane Sandy, each 
has its limitations.
    For example, on USASpending, Hurricane Sandy grants and 
loans lack a unique identifier, making it problematic to 
accurately extract and analyze Hurricane Sandy awards.
    In addition, the lack of sub-recipient data will further 
complicate our work. Given the types of Hurricane Sandy grants 
expected to be awarded, prime recipients of these awards 
oftentimes will be a State or a municipality, but historically, 
the majority of fraud occurs below this level by entities 
performing the actual work.
    That concludes my testimony. Thank you for the opportunity 
to discuss the activities of the Board, and I look forward to 
answering any questions.
    Senator Begich. Thank you very much.
    For our last speaker, again, I want to thank you for being 
here. Before I mention you and your title, I want to make sure 
that folks know for the record we did invite representatives of 
both the New York State and New Jersey State governments. They 
declined the invitation to testify today, so we are happy that 
a local government person is here, Cas, and I appreciate that. 
As the Deputy Mayor for Operations oversees a number of 
offices, including the police department, fire department, and 
Office of Emergency Management. And I was going to say Mayor 
Michael Bloomberg, but you had an election last night so I am 
not sure what it is today, but we are glad you are here, and we 
appreciate it, especially from a local perspective, so please.

     TESTIMONY OF CASWELL F. HOLLOWAY,\1\ DEPUTY MAYOR FOR 
                  OPERATIONS, CITY OF NEW YORK

    Mr. Holloway. Thank you very much, Mr. Chairman, and just 
for clarification, the inauguration is January 1, so I still 
have my job for the next 55 days. [Laughter.]
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Holloway appears in the Appendix 
on page 88.
---------------------------------------------------------------------------
    Senator Begich. Good.
    Mr. Holloway. And so does the mayor.
    Senator Begich. OK. Very good.
    Mr. Holloway. Good afternoon, Mr. Chairman and Senators. 
Thank you for being here. Thanks for the opportunity to testify 
about the role and effectiveness of Federal aid to New York 
City's recovery from Hurricane Sandy.
    I want to begin by thanking you on behalf of Mayor 
Bloomberg and all New Yorkers for answering New York City's 
call after the unprecedented devastation caused by Hurricane 
Sandy. From President Obama and members of his Cabinet, 
including Secretary Donovan who is here today; to entire 
agencies of the Federal Government, particularly FEMA, HUD, and 
the Army Corps of Engineers; to assets including generators, 
fuel, food, and many others; to the billions of dollars in 
recovery aid that Congress made available through the Disaster 
Relief Appropriations Act of 2013, what I will refer to as 
``the Sandy recovery bill,'' the Federal Government has been 
there for New York City since well before Hurricane Sandy made 
landfall on the New Jersey coast last October 29.
    Hurricane Sandy was the worst natural disaster ever to 
strike New York City. It took the lives of 44 New Yorkers, 
caused unprecedented damage to public infrastructure and 
private property, and triggered an enormous and ongoing public 
and private response. I will touch briefly on the role of 
Federal aid in three specific components of the city's 
recovery: before and up to 5 months after the storm; the 
second-stage housing recovery efforts that are underway now and 
will continue for the next 12 to 18 months; and the city's 
long-term plan to protect and mitigate against the climate-
related impacts that have become an increasingly frequent part 
of everyday life.
    I will start with the pre-and immediate after Hurricane 
Sandy aid.
    Our partnership with Federal agencies began well before 
Hurricane Sandy moved up the east coast of the United States 
and took that leftward hook that would subject New York City to 
the storm's most devastating impacts. As the city implemented 
its Coastal Storm Plan, FEMA and the National Weather Service 
(NWS) were embedded with us at the city's Emergency Operations 
Center, and I was there for days, so I can attest we had much 
support. Although the storm did tremendous damage, the pre-
storm evacuation operation was largely successful, and post-
storm surveys indicate that most New Yorkers knew about the 
storm, knew if they lived in a vulnerable area, and knew they 
should evacuate if they lived in an evacuation zone.
    After the storm, together with FEMA and the New York 
National Guard, we removed an estimated 700,000 tons of storm 
debris through some of the contracts that Ms. Tighe just 
mentioned; fueled more than 25,000 emergency and essential 
vehicles through a partnership with the National Parks and the 
Defense Logistics Agency (DLA); distributed more than 2.1 
million Meals Ready to Eat and canvassed more than 100,000 
households in affected areas to distribute food and water, 
sanitary items, and to make referrals to health care and case 
management services.
    As we reported to you when Congress took up the Sandy 
Recovery Act, the city suffered and estimated $19.5 billion in 
damages due to the storm, including nearly $5 billion in direct 
recovery costs. Hundreds of homes were totally destroyed; 
thousands of families were displaced. Given the unique density 
of New York City and the challenge of relocating thousands of 
families, Mayor Bloomberg made it a priority to get people back 
into their homes.
    Thanks to the creativity of Craig Fugate and his team at 
FEMA, we developed what FEMA called the Shelter and Temporary 
Essential Power program (STEP). In New York City, we call it 
``Rapid Repairs.'' Rapid Repairs was a truly innovative 
approach to temporary emergency shelter that is based on a 
simple premise: The best temporary shelter is permanent 
shelter. STEP enabled the city to hire contractors to make 
emergency heat, hot water, and power repairs to victims' own 
homes. In only 110 days since we went into the first home on 
November 21, the city was able to complete repairs on 11,800 
homes and multi-family buildings. That enabled roughly 54,000 
New Yorkers to return to their homes. And our survey data 
indicates that most people, the vast majority, are back in 
their homes in New York City, although many still need to 
recover, have additional recovery to do.
    I note that all Federal dollars have been accounted for, 
and we want to make sure that they are properly spent. It has 
been a priority for New York City since the beginning, and we 
have established monitoring programs overseen by the city's 
Department of Investigation for each of the housing initiatives 
we have undertaken. We will continue this rigorous oversight, 
and we can provide reporting at any level that the Committee 
would like.
    While Rapid Repairs helped thousands of New Yorkers to move 
back into their homes, that was just the beginning. Thousands 
of families need much more work to be done to make a full 
recovery and make their homes better able to withstand severe 
storms and other climate impacts. Thanks to $16 billion, 
unfortunately, due to sequestration--of community development 
block grant funding under the Sandy Recovery Act, and the 
leadership of Shaun Donovan and the Federal Recovery Task 
Force, we launched ``Build It Back,'' a $700 million program, 
in June with the city's first allocation of CDBG funding, and 
the basic idea is to help homeowners continue that recovery.
    As of October 31, nearly 26,000 families have signed up for 
the program, and approximately 500 of those had homes that were 
destroyed. We have encouraged many New Yorkers to seek this 
help, and we are glad that they have done so. Of course, the 
overall need and demand does exceed supply, so we will need 
additional allocations to make sure that the neediest get 
funding and support first. We have prioritized by income level 
and those who are the most damaged.
    We estimate that between 55 and 60 percent of all of these 
applicants are in our first priority group, and we are focusing 
on them. Right now we are actually working, and we have 8,000 
people who are going through insurance verification processes, 
Tier 2 environmental assessments, and Secretary Donovan has 
been very helpful in trying to streamline those processes so 
that we can take advantage of all the work the Federal 
Government has done.
    At the homeowner and building level, perhaps the greatest 
remaining challenge for New Yorkers is the affordability of 
flood insurance. Members of this Committee are well aware of 
it. The city commissioned an independent study that shows that 
only 35 percent of property owners in the floodplain who were 
required to have flood insurance actually had it. Premiums 
could go up for the new FEMA maps that are going to be coming 
out from an average of $430 a year to $5,000 to $10,000 a year, 
so we are encouraged by the legislation that is working its way 
through to delay until affordability can be addressed in a real 
way.
    Of course, the greatest long-term challenge we face is 
protecting New Yorkers over the long term. At the same time 
that we were getting families back into their homes and 
repairing the city's infrastructure, the mayor commissioned 
study of the likely impacts that New York City will face 
between now and the 2050s. The result is this plan, ``A 
Stronger, More Resilient New York.'' I brought some extra 
copies for the Committee, and you can get it on our website at 
NYC.gov. It has 257 separate initiatives to protect New York 
City's 520 miles of coastline, as well as critical 
infrastructure and service networks over the long term. 
Hurricane Sandy took out huge segments of the power grid, 95 
percent of the telecommunications network in lower Manhattan. 
It took out Hospital Row on First Avenue, closing down 
hospitals around the city. This plan is an achievable, 
affordable way to mitigate most of these impacts when the next 
big storm or other climate event, whether it is a flood, 
downpours, or drought, hits New York City. And we are on track 
to complete 43 critical milestones before the end of the year.
    The Army Corps of Engineers is also one of our most 
important partners in this effort. We estimate that more than 
1.5 million cubic yards of sand were lost during Hurricane 
Sandy; 600,000 cubic yards have been put back; 3 million more 
cubic yards are on the way. And I have to say, having worked 
with the Army Corps for the last 7 years, the work that they 
are doing on the beach right now is the fastest I have ever 
seen them operate, without exception.
    Senator Begich. Can I have you summarize? Because you are 
little over the limit, and I want----
    Mr. Holloway. Yes. Sorry about that.
    Senator Begich. But do not worry. Your statement will also 
be included in the record.
    Mr. Holloway. Great. Finally, I just want to note, New York 
City cannot do all of this recovery alone. There are many areas 
over which we have little or on control: the power grid, 
telecommunications, and other critical networks. And so we want 
to work with Congress, with additional allocations that we will 
get to make sure that we can implement this plan. Clearly we 
have a long way to go, and we will need additional allocations. 
But if the support we have received from Congress and the 
Federal Government so far is any indication, I am confident we 
will be able to meet those needs and better prepare New York 
for whatever climate challenges come next. And I am happy to 
answer any questions.
    Senator Begich. Fantastic. Thank you very much.
    What I would like to do is go to the Ranking Member, and 
then I will come back to me, and then I will go down to the 
other two Members that are here. Senator Paul.
    Senator Paul. Thank you, and thank you for coming today. I 
grew up in Texas on the Gulf Coast, so I know a lot about 
hurricanes from personal experience, but we appreciate all of 
you trying to help in the aftermath of the terrible hurricane.
    A question for Secretary Donovan. Do you think that 
Hurricane Sandy relief funds ought to be spent on TV ads?
    Secretary Donovan. I assume what you are referring to, 
Senator, is that there has been an effort in a number of 
States, not just in Hurricane Sandy but historically as well, 
in many prior storms to encourage economic development. And we 
did see a small amount of CDBG money that was used for an 
economic development campaign to encourage people back to the 
beaches. The evidence----
    Senator Paul. Do you think it is a good idea or a bad idea 
that----
    Secretary Donovan. The evidence----
    Senator Paul [continuing]. We spend Hurricane Sandy relief 
funds on TV ads?
    Secretary Donovan. The evidence that we have seen is that 
those campaigns are effective in growing economic development 
in those areas, and, therefore, they actually reduce the cost 
of recovery to the Federal Government.
    Senator Paul. I do not think we need to argue about whether 
ads work. Ads work. But do you think ads for Hurricane Sandy 
relief should be spent on TV ads? Yes or No. I mean, good idea? 
Bad idea?
    Secretary Donovan. As I said, we looked at the evidence, 
and we have seen that encourages economic development. What I 
would say is----
    Senator Paul. My understanding is that you all gave----
    Secretary Donovan [continuing]. That community 
development----
    Senator Paul. You all had to give a waiver to do----
    Secretary Donovan. Senator, if I could just----
    Senator Begich. Go ahead.
    Secretary Donovan. The community development block grant is 
a very flexible program. This is clearly within the legal 
boundaries of what Congress has determined the program can be 
used for, and it was demonstrated to us that this could be an 
effective tool and actually lower the cost to the Federal 
Government.
    Senator Paul. It gives a little bit of a black eye to 
something that maybe a lot of it is going to a good purpose. 
But I would say that if I were in your position, I would have 
said no, we are not going to spend ads.
    Here is another problem. Some of these ads, people running 
for office put their mug all over these ads while they are in 
the middle of a political campaign. In New Jersey, $25 million 
was spent on ads that included somebody running for political 
office. You think there might be a conflict of interest there? 
That is a real problem, and that is why when people who are 
trying to do good and trying to use taxpayers' money wisely, 
they are offended to see our money spent on political ads. That 
is just offensive.
    In New York you actually have a rule. They are not allowed 
to do it. So New York did the same thing, which I still object, 
but at least they did not put someone's face on the ad, and 
their family, and it looks like a bio ad. I think, oh, yes, 
come to New Jersey, but it is, like, I do not want to pay for 
ads for someone's advertising out of the Hurricane Sandy relief 
fund. It gives the whole thing a black eye.
    But it is not just Hurricane Sandy relief funds. We spent 
$684 million advertising for Obamacare. Well, it is a fairly 
contentious issue that was very partisan and passed by one 
party. Should we then get to spend taxpayer money advertising 
for political purposes? I do not think a penny of taxpayer 
money should go to advertising, TV advertising.
    Here is the other criticism: People have pointed out it has 
taken a while for some of the money to get to people. I think 
it was, like, one article said one house or one homeowner in 
one instance coming to your department, yet the money the TV 
advertisers sure got through pretty quickly. I mean, when 
people want to advertise and promote themselves, all of a 
sudden, boom, money is on TV and so is their ad.
    So I would just ask that all of you who are civil 
servants--and I know you want to do the right thing--reconsider 
whether or not it is a good idea. My understanding is it took a 
waiver from your office to use these grants for this and that 
the TV ads had to be approved in that sense by your office.
    The other thing is that there have been community 
development grants given to something called a River Festival 
in Manhattan. I sure hope that none of this money is going to 
it and that I do not find out in a year that the River Festival 
got money for this, because the River Festival is full of all 
kinds of great and groovy things like performance art, a bunch 
of people showing up and holding their cell phone up and 
playing the same songs. That would be a lot of fun. I would 
love to attend that. But I hope we are not going to find that 
Hurricane Sandy relief money went to stuff like that, because 
as you said, community block grants can go to anything. And so 
I sure hope that someone is watching the taxpayer's dollar.
    That is all I have. Thank you.
    Senator Begich. Thank you very much.
    Secretary Donovan, can I followup? I wanted to make sure we 
are clear on one thing. CDBG money, as a former mayor--and I 
think now Senator Booker would say the same thing--it cannot be 
used for anything. There are limitations. Is that correct?
    Secretary Donovan. That is exactly correct. I did not say 
it could be used for anything.
    Senator Begich. Right. That is----
    Secretary Donovan. It has very clear statutory purposes, 
and we reviewed and made sure that it did meet those purposes. 
If Congress determines that economic development campaigns 
should not be included, then obviously that could be added to 
legislation. But currently they are within the bounds of the 
law.
    Senator Begich. Let me get to a broader question. FEMA--and 
I think I know the answer to this, but I want to have the three 
agency people other than FEMA answer this, because I think 
FEMA--when I look at the money of appropriated, obligated, 
expended, you are fairly high up there. You have moved the 
money out there. The other agencies, it is kind of in process 
or not as much in the percentages compared to what is 
appropriated. So maybe if I can start with Secretary Donovan 
and then go to the next two, just so I understand why there is 
a lag. I want to make sure I hear this for the record because I 
understand FEMA because you have to get in there--you do not 
have the luxury of waiting 3 years and bringing the money then 
after the fact. So help me understand that, because that is one 
of the questions that I get a lot of times when they see the 
reports and they say they have gotten it appropriated, where is 
the money being spent?
    Could I start with you, Secretary Donovan?
    Secretary Donovan. Absolutely, and I think this is a very 
important point. One of the things that is critical to 
understand about CDBG is by law it is only allowed to be used 
on needs that are not met by other funding sources, and so----
    Senator Begich. So you are the last bucket.
    Secretary Donovan. We are the third step, effectively, for 
homeowners, for small businesses first--and I think we have 
seen very consistently that FEMA moved very quickly to make 
that first allocation, but only up to $30,000 can be used for 
homeowners, for example.
    Senator Begich. Right.
    Secretary Donovan. And that takes care of the moderate 
damage. You must make sure that your insurance company has paid 
their full claim, and that process needs to happen. And then 
only when those two have been utilized can we then make CDBG 
available, and that is why CDBG only began to pay out more 
recently.
    Let me just give you one comparison. At the point where we 
are today since the appropriation was made by Congress, we are 
more than 20 percent faster in Hurricane Sandy than we were 
under Hurricane Katrina; we are more than 300 percent faster 
than we were in Hurricane Ike on CDBG. And so, clearly, we have 
improved the process. Are there things we could do 
legislatively or within our own power to make it faster? Yes. 
We are working on many of those things. But, relatively 
speaking, I think we have both been faster and more careful in 
the way we are using CDBG money in this story.
    Senator Begich. And as I move to Mr. Porcari, can I ask 
you, some of those ideas at some point legislatively or 
regulatory, can you share those with the Committee at some 
point? So if there are things we could be doing to help that in 
the future as we continue and improve that flow, that would be, 
I think, helpful.
    Secretary Donovan. Absolutely, and I would just compliment 
the Committee on having made many changes for Hurricane Sandy 
that have sped up spending already.
    Senator Begich. Very good. I was going to ask you, if I 
have time, I will ask you about the bridge issue and how you 
used the techniques. I want to know more about that.
    Mr. Porcari. Mr. Chairman, thanks for an excellent 
question. The transportation funding that was provided in the 
supplemental is being used for very specific transportation 
purposes, and I will just quickly go through mode by mode.
    The Federal Aviation Administration (FAA), with a direct 
appropriation, for example, has repaired the damage to the 
three major airports in the region. That is work that we have 
done ourselves or with contractor forces.
    The Federal Highway Administration (FHWA) first released 
money within hours of requests under what we call ``quick 
release authority'' to get the work started on building the 
highway system.
    And then its Emergency Relief Program operates on a 
reimbursable basis, so the work gets done, and it is done by 
State or local governments, and the Federal Government 
reimburses at the end. That is the way that we protect and make 
sure that we get the project built the way it should be, and in 
this case with some resiliency for the future.
    The Transit Program, we have made extensive use of what we 
call ``pre-award authority,'' so specific transit projects as 
part of the Hurricane Sandy recovery have been given pre-award 
authority where the transit agency will be rebuilding those 
facilities according to Federal requirements and then 
reimbursed as part of the process. That is a way to get the 
project underway quickly and make sure we get the product that 
the taxpayers deserve.
    Senator Begich. Very good. Jo-Ellen.
    Ms. Darcy. As I said in my opening statement, we have 
several buckets of money.
    Senator Begich. Right.
    Ms. Darcy. Some for investigations, which is ongoing 
studies, as well as our comprehensive studies, so the spend-out 
rate on that is not as quick as would be for our emergency 
money. The emergency money we had we have expended nearly all 
our expenditures, and that will be completed in the early part 
of next year. Those were the repairs to our existing projects; 
repairing the sand dunes that had been devastated.
    And the third bucket of money is for construction. We had 
18 projects that were authorized but unconstructed, and some of 
those projects had been authorized several years ago. What we 
are doing now is looking at those projects to see whether in 
the light of climate change and sea level rise, those projects 
are still--will be sustainable and resilient. The study is the 
floor of the process and the less expenditure. But once we go 
through that study process, do the pre-construction engineering 
and design, which is a smaller amount of money, and get to the 
actual construction, that is when you will see the outlays on 
these projects.
    Senator Begich. Very good. I have one quick question, and 
then I am going to go to the members, and we are trying to do 
5-minute rounds here, so I will try to be quick.
    Cas, let me ask you a question. Of course, I am going to 
speak in a moment. I am going to substitute myself back to my 
mayor days. The frustration I always had with the State 
organizations was they would get this money, and then you would 
hope and pray it would come down to you at some point in some 
rational, deliverable way. Can you give me your sense of how 
that worked? Or could there have been--and maybe later you 
could give some recommendations. How did that work? When that 
money--CDBG, I do not know in this case if it went directly to 
State or local, I do not know how that went here. But can you 
tell me how that worked when money went to the State and then 
you are down there waiting for it?
    Mr. Holloway. Well, in this case, Mr. Chairman, the 
funding--actually New York City got its own direct allocation.
    Senator Begich. They did.
    Mr. Holloway. Which was great for us, because the level of 
damage that we sustained and our ability to take those 
resources and really start working with them immediately is 
really strong. So, far, the allocations that have come, there 
is a separate allocation for the State of New York, and New 
York City has gotten its own allocations. From that perspective 
it has been great.
    Senator Begich. So that has worked.
    Mr. Holloway. Yes.
    Senator Begich. Fantastic. Let me stop there, and I do have 
additional questions, but let me go to Senator Booker and then 
Senator Gillibrand.
    Senator Booker. If we may, the Senator from New York, who 
has a wonderful view of New Jersey, would like to go first 
because she has some place to go.
    Senator Begich. Please.
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you very 
much, Senator Booker.
    I appreciate all the work you have done, and every single 
one of you has done extraordinary work in terms of getting 
money flowing, getting large projects done, getting things up 
and running, and I appreciate it.
    But what I hear from my constituents is not good. I hear so 
many stories of constituents who cannot rebuild, who have not 
gotten money. There is so much red tape that they cannot 
possibly find their way through. And so I want to ask each of 
you some issues of red tape that concern me that hopefully you 
can give me the road forward so I can let my constituents know 
that relief is possible.
    Secretary Donovan, this one seems very difficult. A number 
of my constituents were dismayed to learn that because they 
accepted Small Business Administration loans that they are now 
ineligible for CDBG funding. Now, I understand the need to make 
sure there is no duplication in getting Federal benefits, and 
we want to protect against fraud. And that is absolutely 
critical to the integrity of this program. But is there any 
distinction that could be made between grants and loans under 
the duplication of benefits regulations? And under the current 
Federal regulations, what are the options for Hurricane Sandy-
affected homeowners who accepted SBA loans but who believe they 
are at a financial disadvantage relative to homeowners who 
chose not to accept an SBA loan?
    Secretary Donovan. Senator, this is something that your 
office raised with us and that others did, and we actually made 
clear that even if a homeowner or business had been approved 
for a loan, they were still eligible for SBA assistance. So, in 
fact, it is not accurate that they are ineligible.
    Senator Gillibrand. But they have been told they are 
ineligible, so is that something we can fix in terms of those 
communicating with----
    Secretary Donovan. Let me be clear, though. Like everything 
else in CDBG, it is up to local communities to determine 
exactly how they use these funds, and one thing that we have 
encouraged communities to do--and I want to be clear about what 
situation the homeowners you are talking to. If a homeowner, if 
a small business can afford to repay a loan, we do not think--
and we have made clear--that communities should make grants 
available because these are precious limited dollars, and so 
what we have encouraged communities to do is to do an 
evaluation. And I have heard frustrations from business owners, 
homeowners. They say, well, somebody else is getting a grant, I 
am getting a loan. Well, the fact is if they can afford that 
loan, then we encourage communities to do an underwriting and 
to evaluate that and to use grants only where a homeowner or a 
business cannot afford to repay a loan.
    And so that is the guidance that we have given, but we do 
leave flexibility for communities to make that determination.
    Senator Gillibrand. Well, I would appreciate that you make 
that guidance very clear when someone is looking at an SBA 
loan. They need to know what limitations they will be under in 
the future. It needs to be clearer.
    Secretary Donovan. I agree there was confusion, and we have 
absolutely worked with your office, and you have raised this 
before to try to clarify that as much as possible.
    Senator Gillibrand. Thank you.
    Secretary Donovan. We are happy to do that more.
    Senator Gillibrand. Deputy Mayor Holloway, so we have read 
a lot of news stories, and we have done yeoman's work on so 
many infrastructure issues and done excellent work. But for 
homeowners, there is still enormous challenges because, while 
FEMA caps the payment out at 30K, very few people receive the 
full payout. Their home might have been destroyed, and they are 
eligible for a grant of $8,000.
    So, while we do our best, it is not enough for these 
homeowners to rebuild. And, in fact, there are families that 
are still homeless a year out, and that is horrible.
    So specifically for Breezy Point, Staten Island, and the 
Rockaways, how quickly do you think CDBG money will get to 
homeowners? And what percentage of those areas have actually 
received any CDBG money?
    Mr. Holloway. Well, so each of those areas, having been 
there many times and worked with, particularly in Breezy Point, 
the homeowners association, we have done a lot to try to 
advance building. It is not only getting the money. It is being 
able to actually build, put things in the ground. And so we 
have been able to advance that.
    I think that in terms of FEMA recovery, that really is a 
case-by-case determination of their assessment of what the 
damage is. We now have 26,000 families that have signed up for 
Build It Back, and we are in some stage of financial assessment 
for them. So as Secretary Donovan said, the CDBG money is money 
of last resort, which means that you have to do an insurance 
verification; you have to figure out whether they have any 
other FEMA money, any funds from any other sources. We are 
working closely with insurance companies, but we have 1,400 
requests for verification from one company in particular that 
have not been met. And these steps in this process--which we 
are not opposed to in any way because you do have to make sure 
that the dollars are going to people who actually need it, but 
they do take time.
    Now, I think we have had some CDBG money flow, but I will 
say the mayor is not satisfied that it has gotten to enough 
people yet. I think you will see, I am confident you will see, 
between now and the end of the year, we will begin to ramp up 
to hundreds and then ultimately thousands who will be getting 
that funding.
    Senator Gillibrand. Thank you. Well, let me address some of 
the red tape that your mayor is probably experiencing with 
regard to Administrator Fugate. So FEMA worked with the local--
these localities to submit project work sheets, which makes 
them eligible for reimbursement. And over the last year, many 
of these project work sheets have still not been paid, and 
these delays have caused setbacks to local projects and bottom 
lines, many of them borrowing while they await payment.
    Do you know how long--or how many project work sheets FEMA 
is still processing and what the anticipated timeframe for 
turning those around is?
    Mr. Fugate. Senator, it depends upon the project. A project 
work sheet is a tool to determine what is damaged and what is 
going to be needed to make repairs. We have prioritized working 
with the State. Some of the first projects were going to be all 
the debris and all of the emergency costs that were expended. 
Those were dollars that went out the door immediately. And so 
as we have been going through that, we have to have 
documentation to demonstrate the costs so that we can satisfy 
the requirements that they did the work, it was expended, and 
we reimbursed that.
    Most of the emphasis has been on the initial cost. There 
are some that still need more documentation--but if you have 
specifics, we will work on them.
    Now, the rebuilding piece of those project work sheets is 
going to take more time because once we get in the permanent 
work, we have several different tools we are trying to use to 
speed this process up, but we still have to go and work through 
processes to ensure that is it over 50 percent, are we going to 
be able to mitigate this, and what is the longer-term 
requirements to rebuild?
    Senator Gillibrand. Thank you, Administrator. My time has 
expired, but for Assistant Secretary Darcy, obviously Long 
Island is so important, and people are very concerned about the 
time it is taking for the stabilization projects within the 
Fire Island to Montauk Point (FIMP) study to be started and to 
know when these emergency stabilization projects will be done.
    Can you just give a quick update about where we are in that 
process?
    Ms. Darcy. For the Fire Island to Montauk Point?
    Senator Gillibrand. Correct.
    Ms. Darcy. Well, we have begun some of the emergency 
response, which was part of rebuilding what was there. We are 
currently reviewing the Fire Island to Montauk Point, which as 
I mentioned is an authorized but unconstructed project. So we 
have to relook at it to make sure that it is in today's sea 
level rise and climate change lens that we are looking through 
and building it to the right dimensions. We are committed to 
doing some expedited review processes for all of these 
projects.
    Senator Begich. Thank you very much. Senator Booker. And we 
will probably have time for another round if there are 
available questions.
    Senator Booker. Senator Begich, I just want to say again 
thank you for holding this hearing. I have a lot of affection 
for you even though we have only been colleagues for 6 days. 
[Laughter.]
    But that affection is born from the fact that you know what 
it is like to be a mayor and the difficulties you have 
grappling with real issues on the ground every single day. 
People do not know what a Secretary's number, they do not know 
necessarily what a legislator's number is, but they know where 
you live, and it is something that I take very seriously. And I 
just want to say to the panel assembled, I am grateful that you 
are here. I have only been here for 6 days. I still have that 
new Senator smell, I am told, but I have had a chance to deal 
with the Secretary on multiple occasions as mayor, and I think 
the Obama Administration has many stars, and frankly none of 
them shine brighter than you do.
    The frustration my office already has is that we are 
dealing with lots and lots of people who feel this sense of 
discontent, ill at ease, frustration, and a lot of stories, and 
we are unraveling them, and your team, the team assembled here, 
has been in credible with my office. Again, Mr. Fugate, I look 
forward to meeting with you and bringing to you a lot of the 
individual concerns that are not necessary to go through here 
because you have made yourself so available, and I am sure I 
can expect the ability to meet with all of you as I deal with 
what is a sense of urgency from my office.
    Secretary Donovan thank you very much. You can call me 
``Cory.'' I know the best thing about you is that your head is 
with the entire State, but you married a New Jerseyan, so your 
heart is with New Jersey, I am sure.
    Secretary Donovan. As your colleague says, I married up.
    Senator Booker. Yes, you did marry up most exceptionally. 
So for me in my office--and we plan on spending a lot of time 
in the district over this next month meeting with a lot of 
families, because many of them do not know who to call. They 
are so frustrated. They do not feel like they can rely on 
government anymore. They have gone through some of the red tape 
and gotten nowhere. And so as we stood--so the two points I 
want to make, to the Chairperson, I am hoping that we can do 
more of these as the recovery continues because this is not 
going to be finished in a month, in 2 months, in 5 months, but 
this is very good as we move forward.
    Senator Begich. Very quickly on that, I will tell you one 
of the goals of this Subcommittee and another Subcommittee that 
I chair is one of the roles the Senate should do more of is 
oversight like this. So we are not waiting for a crisis to 
occur, but, 6 months from now or a year from now, we are going 
to have these same conversations because we want to keep track 
of how it is going, and if there are legislative and regulatory 
changes we need to make, we should be trying to do that in 
concert with what is going on. So, absolutely, the idea is to 
have oversight and to work with agencies to improve what they 
are doing, but also make sure people on the ground are getting 
what they supposedly had thought they were getting.
    Senator Booker. Right, and my hope is----
    Senator Begich. And that should not count against your 
time, what I just consumed.
    Senator Booker. I appreciate that.
    Senator Begich. I am telling that to the staff, whoever is 
the clock holder.
    Senator Booker. The Senate is a generous institution, I am 
finding. So the----
    Senator Begich. He is new. [Laughter.]
    Senator Booker. So the point for my team right now is that 
sense of urgency you get from being a mayor is the sense of 
urgency we are going to treat this problem with, because we 
have families in crisis, we have challenging counties on the 
western shore of New Jersey who really feel like they have been 
left out of this equation, who still feel like there is 
everything from debris still in bodies of water to houses still 
destroyed. And so my hope with everybody as we set up our 
internal benchmarks is that we will be able to continue to 
touch base over a regular period of time to make sure that your 
professionals, your extraordinary professionals, are operating 
with that constant sense of urgency and driving your teams as 
hard as possible to meet the needs of the State of New Jersey.
    And so in the 90 seconds that I have remaining, to my 
friend and, again, our leader, I have learned a lot from and 
have a lot of respect, when we stood together just about 2 
weeks ago when I was still Senator-elect, we talked about the 
next tranche being released, and it was interesting, though, 
afterwards I heard from the mayors assembled and some others, 
some of their individual frustrations.
    And so my hope is--obviously there is going to be a third 
tranche, and you have done a lot to expedite funding compared 
to what happened in previous--you brought it to a whole new 
level. But my concern is it still does not seem fast enough. 
And I am wondering, Secretary Donovan, in the few seconds I 
have remaining, could you just talk generally about things you 
are doing to further expedite it and help me understand sort of 
your expectation on that third tranche which is so critical?
    Secretary Donovan. Senator, thank you for your leadership 
in Newark as well. The city is much stronger, many families 
that would not have gotten help without your leadership. I know 
there is still pain there, but thank you for your leadership 
locally.
    Senator Booker. Thank you.
    Secretary Donovan. And I know you are going to bring the 
same energy to the Senate as well.
    I think the problem with talking about these is this is 
blocking and tackling hundreds of small decisions that are made 
along the way, and so I could give you a list of 20 or 30 key 
changes that we have made that have made a difference. Just one 
example. There was some cruel irony that anyone who started 
rebuilding themselves would not then be eligible for CDBG help. 
We changed that with urging from many of your colleagues so 
that now somebody can get reimbursed. That is just one small 
example.
    Historic preservation reviews and the environmental, we 
followed on with FEMA's good work, made a programmatic 
agreement that sped that up significantly. So there are 
hundreds of small things like that.
    I think the areas where I would say big picture are most 
important, the insurance process, not just on flood insurance 
and having enough reviewers and other things in a very dense 
area like New York or New Jersey, but also getting homeowner 
policies aligned so that families can know--often they get 
their insurance, and then they cannot even get access to it 
because their bank is there. And that is something that we have 
worked a lot on. I think that is critical. And then the 
environmental reviews.
    The Committee did something very important in giving us the 
authority when FEMA puts money into a project to just accept 
their environmental review. We do not have that authority for 
any other agency. It is something we think legislatively ought 
to be done. That is an example. I would be happy to provide you 
a longer list.
    Senator Booker. OK. Thank you.
    Senator Begich. I will let you go ahead, Senator Schumer, 
and I will get back--if you are able to stay, we will give you 
another round here, but Senator Schumer?
    Senator Schumer. Thank you, Chairman.
    The first question is to Assistant Secretary Darcy. I am 
really worried about more bureaucracy getting in the way of 
doing FIMP, of doing Rockaway, of doing Fire Island. One of the 
problems we have is the Office of Management and Budget (OMB). 
Even though we gave the Secretary the authority to approve 
general reevaluation reports without extra review by OMB, they 
seem to be demanding review. I have called OMB about this. We 
have talked about it. But I am really worried about their 
getting in the way of both the FIMP study, Fire Island to 
Montauk, and East Rockaway Inlet to Rockaway Inlet 
Reformulation Studies. If they have to review everything, it is 
going to slow things down too much, and that gives me worry 
about another storm.
    Could you tell us what is happening? What is your view, 
your candid view, of OMB's, shall I say, meddling here and what 
we can do to speed things up?
    Ms. Darcy. One thing that we are doing, Senator Schumer, 
with both the limited reevaluation reports as well as the 
general reevaluation reports, is we are having monthly meetings 
with CEQ and OMB, with our division commander, who is sitting 
right behind me, General Savre, to give them a status report on 
a monthly basis of where we are on each of the 18 projects that 
you were referring to that were in the Interim 2 report so that 
we can all know what the status is, where we are, if we see 
problems coming up. That will help to speed that review because 
it will be ongoing before there is even a final product.
    Senator Schumer. But it is my understanding--and I was one 
of the, probably the lead author of this legislation--that we 
did not need OMB approval for the things that were already 
authorized, like FIMP. Are they seeking such approval? And is 
it standing in the way? I do not mind you consulting with him. 
That is fine with me.
    Ms. Darcy. At this stage, Senator, as I say, we are going 
to be consulting with them and reviewing this, but we will 
follow the law as it was----
    Senator Schumer. So, without being too confrontational to 
your dear friends at OMB, you are agreeing with me that the law 
does not require their approval.
    Ms. Darcy. That is correct.
    Senator Schumer. Thank you. Very good answer. [Laughter.]
    Senator Begich. That was the perfect answer.
    Ms. Darcy. Oh, really?
    Senator Begich. Yes.
    Ms. Darcy. I am not sure I feel real comfortable about it.
    Senator Schumer. Yes. [Laughter.]
    Perfect from this side of----
    Senator Begich. Let me just say, if I can, for Senator 
Schumer, your honesty and your forthrightness is greatly 
appreciated.
    Senator Schumer. Right. OK. Next we will go to Secretary--
--
    Senator Begich. They are hoping they are not picked. I can 
feel it.
    Senator Schumer. To Secretary Porcari, another fine--and I 
mean it. You guys and gals have done a very good job. Porcari 
is from Rochester, so that explains a lot of it. But in any 
case, two questions on highway stuff. When can we expect an 
announcement of the remaining $5 billion in FTA emergency 
relief funds? And, more importantly, Federal highway relief 
money cannot be used for mitigation, like on Ocean Parkway; 
that is why we turned to other funds to help us with Ocean 
Parkway on Long Island. But are you considering using any of 
your authority to use FTA money for resiliency on other 
transportation modes? You can do that should you wish, as I 
understand it. It was not used on Ocean Parkway, but it should 
be used in other places on Long Island and in New York City. 
Tell me a little about that.
    Mr. Porcari. You are correct, Senator. First, the authority 
exists under the act for the Secretary to transfer money to 
another mode.
    Senator Schumer. Right.
    Mr. Porcari. First, to answer your question on the next 
tranche of transit money--and, again, that is the single 
biggest need in the transportation network, as you well know. 
We have a Notice of Funding Availability that is in internal 
review right now. We will have that completed very quickly. It 
will be for $3 billion, specifically awarded on a merit basis 
for resiliency projects. We will coordinate it with the task 
force by, for example, making sure that we have Corps and HUD 
and FEMA and other reviewers looking at that from a systems 
perspective to make sure--because this $3 billion is honestly a 
fraction of the need that is needed out there in the transit 
network.
    Senator Schumer. Right.
    Mr. Porcari. The thinking is also that there are rail 
projects that may well fall into that same category. There are 
shared use facilities, which you are well aware of, like 
Substation 41, which is an Amtrak-owned substation but serves 
both New Jersey Transit and Intercity Passenger Rail, and 
either through the award process directly or through the 
Secretary's transfer authority, there may be rail projects. We 
do not anticipate going beyond Transit and Intercity Passenger 
Rail projects with that.
    Senator Schumer. Right. I just hope you will keep an open 
mind with the remaining $2 billion in terms of resiliency, 
using your authority to transfer so we can build better to 
avoid the next storm. Very important.
    Mr. Porcari. Resiliency will certainly be our focus, and we 
know, given the vulnerability of the whole transportation 
network but, in particular, the transit system that--and what 
we know about sea level rise, for example, we have a lot of 
work to do.
    Senator Schumer. You bet.
    Could I ask one more question with your indulgence, Mr. 
Chairman.
    Senator Begich. You will also have time for a second one.
    Senator Schumer. OK. Great. This goes to first Mr. Holloway 
and then Shaun Donovan. As is obvious--it is not news--
homeowners are complaining they are not getting the money 
quickly enough. There are all kinds of reasons for that, and as 
I said, I think the second year they are going to be much 
happier with the monies in the pipeline and flowing. The spigot 
is now open. But what, in your opinion, Mr. Holloway--and I am 
sure this would be true for your colleagues in Long Island and 
West Chester as well--is the biggest red tape problem getting 
in the way of aid to homeowners and projects at the Federal 
level?
    Mr. Holloway. Well, I will start by saying that there has 
been a lot of red tape that previously had existed that has 
been cleared up, and so that has been tremendous. I think that 
it is a challenge to--since CDBG is essentially the backstop, 
it is a challenge to get to the backstop.
    Senator Schumer. Right.
    Mr. Holloway. Now, that is not to say that that is 
necessarily HUD's issue, but getting verification from 
insurance companies, getting everybody's financial conditions 
in order is very challenging to do. And so if I had to say what 
would relieve that issue, figuring out the right way without 
opening up the specter of, duplication of benefits and all of 
those things, which have really driven a lot of--the creation 
of a lot of process to basically get enough data to say, OK, we 
are pretty sure we are pretty good at--that your 85 percent, we 
can give you some portion of the funding even if you are not at 
the end of the verification process. I know that would be 
difficult to do, but that is the challenge.
    Senator Schumer. And, yes, a lot of that--we do not want to 
pay when insurance has already paid. Would you agree with that, 
Secretary Donovan?
    Secretary Donovan. I think it is absolutely the center of 
many of the things that appear as red tape to homeowners, 
whether they are necessary or just, frankly, unnecessary 
delays.
    One of the things that, as we started to work through this, 
my team began developing is something I call a ``program in a 
box.'' One of the problems that you have is that each State or 
locality developing--particularly smaller localities. New York 
City has, high capacity--I am a little biased here, but as high 
capacity as any city in the country. But for many of the 
smaller communities that have been hit to create a brand-new 
program to figure out how to do these checks and other things 
is a major barrier. And so what we have begun to work on is a 
program in a box where literally we could say here is the 
model, just adopt it, and it will allow you to move faster. I 
do not think that takes care of, by any means, all of the 
issues, but it certainly could remove some of the unnecessary 
red tape.
    And then I think it is worth going back and thinking about, 
on duplication of benefits, are there things that we can do to 
simplify and streamline that while still not running afoul of, 
basically subsidizing insurance companies.
    Senator Schumer. Right. Thank you, Mr. Chairman. Thank you, 
Senator Booker.
    Senator Begich. Thank you very much.
    Let me have a couple quick ones, and then I will go to 
Senator Booker. It dawned on me as we were talking that in your 
testimony you mentioned what the impact of sequestration was to 
some of the resources. So in this next round we are about to 
hit, the CR in January and potential sequestration if we cannot 
get a budget, will that have an impact on the additional 
resources you have?
    Secretary Donovan. Generally speaking, Senator, it was a 
one-time reduction of 5 percent.
    Senator Begich. OK.
    Secretary Donovan. So specifically for the $16 billion----
    Senator Begich. You have already had the reduction----
    Secretary Donovan [continuing]. It was a 5-percent 
reduction down to 15.2, and that is pretty much across the 
board.
    Senator Begich. And that is--everyone else--OK. Good.
    Let me, Ms. Tighe, if I can ask you a question. When you 
were talking, you had suggested some reporting process that 
really are not in place. Are you going to prepare at some 
point--or could you prepare, I guess--for this Committee kind 
of what those items you would recommend to ensure that at least 
there is more transparency in reporting of how the expenditures 
are being done so people like yourself and others can review 
them in a more accurate way, and if that is done by regulation 
or legislation? That is the first question.
    The second question is: Have you, in what you have been 
seeing and looking at, uncovered any questions or hot spots 
that might say here is an area we better be looking at today in 
regard to some of these expenditures? And if the answer is yes 
to that, is that occurring? Does that make sense, that last 
question?
    Ms. Tighe. Yes, it does. Mr. Chairman, we are happy to send 
you information on specific recommendations that we would make, 
but just to sort of give you--one thing we really learned from 
Recovery is that the public is very interested in where money 
is going, really specifically where it is going and what it is 
being used for. And a lot of our impetus is on transparency of 
information.
    It seems like an easy fix to us to do what the Federal 
procurement database already does, which is when a hurricane or 
a special event hits, they give it a special code. Why can't we 
do that on USASpending.gov so that we know what on that website 
is being spent for Hurricane Sandy? It just seems easy to us. 
It is----
    Senator Begich. What do they say?
    Ms. Tighe. Well, we have asked the question and, it had to 
be something that was done right out of the box. It is not 
something we can do now. It is not something--and I----
    Senator Begich. Well, let me pause you there.
    Ms. Tighe. Please.
    Senator Begich. We have four agencies here.
    Ms. Tighe. Yes.
    Senator Begich. So your statement is good, so I guess here 
is my question, if I can pause you for a second, to the four 
agencies. Can you set up a system now or into the future that 
whenever--I mean, to assume there is no disaster coming would 
be a mistake. There will be one at some point. Can you do this 
simple system here?
    Secretary Donovan. So, Senator, let me address this, 
because we have been working with the Recovery Accountability 
and Transparency Board on this. We have set up a system to 
collect data. We do have a website available monthly with 
information on spending. I think the issue is not that we 
cannot do that. It is that to get to the level of detail and 
information that the Inspector General was talking about 
requires additional steps. And so we do believe--and, in fact, 
it was part of our Sandy Recovery Task Force report--that we 
ought to have a legislative requirement for future 
appropriations like this that we create a project management 
office and that there are data requirements in terms of----
    Senator Begich. But do you need a legislative requirement? 
Why don't you just do it?
    Secretary Donovan. The simple answer is that because of--
the extent of work was enormous to get to that reporting for--
it means inserting in hundreds of systems across the Federal 
Government particular lines or codes, and that is not something 
you can do overnight. It takes significant investment.
    Senator Begich. Ms. Tighe wants to jump in. Let me go back 
to her for a second.
    Ms. Tighe. Well, I must confess to not knowing the 
mechanics of what happens on the Federal Procurement Data 
System, but every contract let by the government, it is really 
a system that the General Services Administration (GSA) has set 
up in the Federal Procurement Data System that you have to just 
fill in a box that says, yes, this is a Hurricane Sandy, it 
gets a national interest action code, I think it is called. I 
think we are really talking about something that I think 
USASpending itself could generate. I do not know if it has to 
mean, changes to thousands of agencies' systems feeding data. 
And I know that the HUD task force has done a good job, and 
they do have a website that does discuss spending. It is just 
that it is at a very high level, and the Secretary is right 
that what we are really talking about is a level that is much 
more granular.
    Now USASpending has some of that. It is just that, it does 
not separately capture or you cannot, search by, hey, what is a 
code for Hurricane Sandy? There is really no reason why the 
major portal we have for Federal spending cannot do that. I do 
not think it is--and I am not a person who can tell you what 
the mechanics are of having that done, but I think it can be 
done without actually legislation, I do not think. There just 
has to be a decision made to do it.
    Senator Begich. Let me hold you at that, because I have run 
out of time, but let me ask you that last--the first part of 
the question, and that is, can you produce for the Committee 
that shopping list?
    Ms. Tighe. Absolutely.
    Senator Begich. OK. Would you submit that? Then if you can 
indicate if you think it is regulatory or legislative, so that 
can help us do a little understanding of what we can do here or 
what we can press to have happen.
    Ms. Tighe. We will.
    Senator Begich. Fantastic.
    Senator Begich. Let me go to Senator Booker for your next 
round.
    Senator Booker. Sure. I have one more question, but I take 
solace from the fact that this Committee as well as other ones 
that have jurisdictional oversight will have other hearings in 
the future, because obviously this is probably one of the worst 
top two storms that has hit our country in the last century in 
terms of its impact, damage, and cost, and especially in our 
region, in the greater New Jersey region, which is one of the 
most productive in terms of our national gross domestic product 
(GDP) and important from an arts and cultural perspective. This 
is obviously something of great concern not just to our region 
but to the country as a whole. So I am glad--and just want to, 
again, Mark, for the record, my gratitude that everyone 
robustly shook their heads up and down about their willingness 
to meet with me directly and work in close conjunction with my 
office as we try to tackle these problems.
    The one thing I will bring up--and I know, again, I am 
looking forward to meeting with Mr. Fugate and being able to 
discuss this issue, but I guess I am confused. I know at the 
municipal level things sometimes do not make sense, but this is 
the national level, and I am sure things are a lot more 
rational here in Washington. And so, the thing that has chilled 
my understanding of what is going to happen to my region when 
the flood insurance rates go so up, it is going to devastate, 
completely devastate areas of New Jersey, and not only will it 
affect homeowners, but they will not even be able to sell their 
homes because who is going to buy their homes, often with such 
high insurance levels?
    From my understanding, and just my beginning to dig into 
this personally, when Biggert-Waters passed, it required FEMA 
to do a study about the insurance affordability and the impact 
it would have on the region. And it seems like a critical 
thing, before you allow the phasing in of these incredibly high 
insurance rates, that we would know sort of what we are going 
to do to that region.
    So I guess just for a matter of the record for now and 
something that we could definitely get into more when we talk, 
could you let me understand what is going on with that study 
and what it really says about the devastating impact, potential 
devastating impact this could have to regions like mine?
    Mr. Fugate. Yes, Senator. The goal of Biggert-Waters was to 
move toward an actuarially sound insurance program that would 
encourage private sector participation because we would no 
longer subsidize rates below market value. There were many 
pieces to that, and generally, when you would see legislation 
that would tie a specific action before further action would 
go, the language would have been written so that the 
affordability study would have been a requirement before you 
went to the next steps. The way the legislation was written, it 
was all done concurrently. So the phase-in of the rates was not 
tied to an affordability study being done. It was an 
affordability study was to be completed but not hold up any of 
the other implementations. This is the area we have come back 
and worked, and Senator Menendez had asked for technical 
drafting assistance on the initial funding that we were given 
and timeframes. We went to the National Academy of Science, 
they informed us that in the timeframes given and the funding 
provided they could not complete the study.
    Senator Booker. So help us understand this. Does that even 
in any way seem rational to you to let the phasing in happen 
without even understanding and having the study completed?
    Mr. Fugate. The ability to not phase in was not permitted 
in the legislation. There were certain timeframes that we were 
required to implement those phase-ins to start moving toward 
actually based--a year ago, we had already done secondary 
homes, commercial, and repetitive loss. The next steps were for 
those people that are currently subsidized, begin phasing them 
in over a period of time. And then the one that is causing the 
most immediate problem is for those folks we are seeing map 
changes where there is a very limited phase-in. All of these 
changes were predicated upon when the legislation was passed, 
you had certain timeframes to get that done, and the only 
delays was the regulatory process of implementing those rules 
for that.
    So the affordability study, although still required; again, 
we provided the technical drafting assistance that we needed to 
be able to expend the funds that the National Academy of 
Science said would be required and allow the timeframes they 
stated it would be allowed, and then postpone the increases for 
those areas until that study is done.
    Senator Booker. So that sounds like a recommendation, in 
other words, it makes sense to do the study. The study right 
now is not being done, nor do we have the money to do the 
study. But yet we are still moving forward with the phasing in. 
It sounds like you are saying that the advisable thing to do 
would be to do it right, to actually understand--to do the 
study, allocate whatever resources are necessary so we 
understand and we do not fly into this blind and hurt a lot of 
people.
    Mr. Fugate. Again, understand that as the legislation was 
signed into law, we have been implementing the law as it has 
been designed. This is an area that, when Senator Menendez in 
the previous hearing that I testified on flood insurance, he 
specifically asked for us to support technical drafting 
assistance, and that is exactly what we have been working on, 
is how do we make insurance so that we do not subsidize risk 
beyond which there is a return of benefit to the taxpayer, but 
obviously the intended goal should not also be place people out 
of their homes because we make insurance so unaffordable for 
existing homeowners.
    Senator Booker. I understand that. I guess what I am 
missing is the link, and I will talk to Senator Menendez about 
this. I guess I am missing the link. So, in other words, you 
have provided the technical assistance, but it is still not 
done.
    Mr. Fugate. It still will require legislative action to 
change this to be signed into law, because as we understand the 
law, we were not given any flexibility in implementing the 
timeframes once we had the regulations done that the 
affordability study was not--the increases were not dependent 
upon the affordability study being done. It was written in such 
a way that it was all being done concurrent.
    Senator Booker. So you are saying it is really on the 
legislature to act in order for this to be done the way it 
should have been done.
    Mr. Fugate. Senator, as I testified last time, we have not 
found any way to delay those implementations without the 
assistance of Congress giving us the ability to suspend some of 
those increases until such time as an affordability study is 
done.
    Senator Booker. So we are rushing forward with this, not 
knowing the impact it is going to have, not knowing if we have 
even struck the right balance. That to me just seems a million 
percent wrong and damaging. Would you agree?
    Mr. Fugate. Well, I would agree, as I have testified, that 
if we do not address affordability, our risk is we are not 
going to be able to move this program to a sound basis. We will 
continue to subsidize risk and encourage growth and development 
where we probably should not be building that way. And we are 
going to put people out of their homes.
    Senator Booker. Right.
    Mr. Fugate. So there is a balance here that has to be 
struck between looking at affordability but not artificially 
creating a situation that we are subsidizing risk at such a low 
rate we continue to increase our vulnerabilities to future 
disasters. We have to change how we are building. But it should 
not be at the expense of people in their homes forcing them out 
in the short run, but understand that in the long term we have 
to look at how we build in coastal communities in such a way 
that people's homes are not threatened every time we face a 
storm.
    Senator Booker. And I agree with you, but the frustrating 
thing for me is you have to know before you go, and we are 
acting without having the knowledge base necessary to make 
sound decisions, and we could end up with a situation 
profoundly devastating. That is very frustrating.
    Secretary Donovan. Senator, if I could make two points 
here. One is that this is an issue the Administration raised 
when Biggert-Waters was passed. In our statement of 
Administration Policy on this, we raised the fact that there 
was not an affordability provision that would allow us to 
protect folks. It is an issue that we raised in the Sandy Task 
Force report. And I just want to echo Craig's point that this 
is something that we need to act on without undermining what is 
an important step forward in making the program something that 
does not encourage development in places that--and I think it 
is important we strike that balance, and I think even it is 
possible that we could get some authority to start doing this 
even before the affordability study is done, if we can work 
correctly with you to get the right legislation.
    Senator Booker. I would agree with that, and I know that my 
colleagues from New York as well as the Chairman probably would 
agree with that as well, so thank you.
    Senator Begich. Thank you very much.
    Let me add to that, and then we will close this hearing, 
and that is, we have a piece of legislation, as you know, that 
is pending, and it dawns on me as I am sitting here, I am 
hopeful that you have reviewed that legislation that would 
delay the implementation based on the affordability study done. 
But I would ask, if you have not given input on that, at least 
to this Committee--you may have to individual members--I would 
greatly appreciate that, because what you are experiencing, 
Senator Booker, is a piece of legislation that was not crafted 
well. It was crafted with a good intent, but there are pieces 
of the equation that were discovered after the fact that now we 
are trying to fix. The problem is the Administration is bound 
by the law of what they must go through. If we went back in 
time, I bet you there would be a different discussion going on, 
knowing the facts we know today, but we are in this quandary. 
We have a bill pending. I know Senator Menendez has. I know I 
am a cosponsor, and the whole idea is to partially unwrap this 
to get us to the affordability study, get to an affordability 
of rates, and then deal with the rate structure, because there 
has to be reform. I think the Administrator has made it very 
clear. Everyone knows this. We have to have some reform there, 
but we have to get to the affordability and also the timetable. 
So it is one of these pieces of the legislation that, when you 
look at it today, you go, ``Why didn't we'' fill in the blank? 
Now we are trying to fill in the blank, but the clock is 
working much faster for them to administer versus us 
legislatively. There is a pending bill, and we are anxious to 
try to find a vehicle to move it. The Senate has a version; the 
House has no version as far as we know right now.
    So let me say the record will stay open until November 21 
for additional questions that Members may have and submit to 
the Committee. I do want to thank the panel. Usually we break 
panels into two, but we thought because of all the uniqueness 
and experiences you all have it was important to have you all 
at the table.
    Thank you for being here. Thank you for being part of this 
hearing. And, again, to Senator Booker and to other folks from 
New Jersey and New York that were here, we will have continued 
efforts to follow this and make sure we are on the right track 
with the expenditures and activity with Hurricane Sandy because 
I think it is a good learning opportunity to make sure we 
improve our systems.
    So thank you all for being here. I appreciate it. The 
Committee now is adjourned.

    [Whereupon, at 4:33 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 
                                 <all>
</pre></body></html>
